           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION


        PERFORMANCE

      MEASURE REVIEW:

 RELIABILITY OF THE DATA USED

 TO MEASURE REPRESENTATIVE

        PAYEE ACTIONS


    MARCH 2000   A-02-99-01010




AUDIT REPORT

                             Office of the Inspector General

March 20, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure Representative
Payee Actions (A-02-99-01010)


To fulfill the responsibilities of our workplan related to performance measurement, we
contracted PricewaterhouseCoopers (PwC) to evaluate nine of the Social Security
Administration’s (SSA) Fiscal Year 1999 performance indicators that were established
by SSA to comply with the Government Performance and Results Act.

Attached is a copy of the final report on one of the performance indicators reviewed.
The objective of this review was to assess the reliability of the data used to measure
performance of the representative payee process.

In addition to releasing individual reports on the performance indicators reviewed, PwC
released a summary report on all of the indicators reviewed. SSA commented on the
summary report, Performance Measure Review: Summary of PricewaterhouseCoopers’,
LLP Review of the Social Security Administration's Performance Data (A-02-00-20024).
Agency comments to the summary report were provided to us on January 28, 2000.
The comments related to the subject of this report are included in Appendix C. PwC
reformatted the Agency comments to align them with the firm's recommendations
presented in the final report. Nonetheless, SSA's comments were not changed during
the reformatting process.

You do not need to respond to this report, since you are responding to the same
comments attached to PwC’s summary report. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaefer, Assistant Inspector
General for Audit, at 410-965-9700.



                                                James G. Huse, Jr.

Attachment
Evaluation of Selected Performance

Measures of the Social Security

Administration:

Reliability of the Data Used to

Measure Representative Payee Actions

Office of the Inspector General
Social Security Administration


Agency comments to this report were provided to us on January 28, 2000. Many of the
recommendations made in this report are also found in earlier financial statement audit
reports. In Appendix C, the Agency notes in its comments, “Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response.”

For the reader to be fully aware of SSA’s comments that were made to each of the
duplicate recommendations found in this present report, we incorporated those Agency
comments, that were made contemporaneous to the earlier audit report recommendations,
as part of the Agency comments located at Appendix C of this report.




A-02-99-01010                                                 February 18, 2000
                         Table of Contents


Performance Measures Evaluation

 Introduction                                    1

 Results of Engagement                           2

 Other Matters                                   12

Appendix A: Background                           A1

Appendix B: Scope and Methodology                B1

Appendix C: Agency Comments and PwC Comments     C1

Appendix D: Performance Measure Summary Sheets   D1

Appendix E: Performance Measure Process Maps     E1
INTRODUCTION

The Government Performance and Results Act (GPRA), Public Law Number 103-62,
107 Statute 285 (1993), requires the Social Security Administration (SSA) to develop
performance indicators for fiscal year (FY) 1999 that assess the relevant service levels
and outcomes of each program's activity. GPRA also calls for a description of the
means employed to verify and validate the measured values used to report on program
performance. SSA has stated that the Office of the Inspector General (OIG) plays a
vital role in evaluating the data used to measure performance. The OIG contracted
PricewaterhouseCoopers (PwC) to evaluate the following GPRA performance
indicator(s):

1.	 Percent of OASI claims processed by the time the first regular payment is due,
    or within 14 days from effective filing date, if later
2. OASI claims processed
3. Percent of initial SSI aged claims processed within 14 days of filing
4. SSI aged claims processed
5. Representative Payee Actions
6. SSN requests processed
7. Annual earnings items
8. Percent of earnings posted to individuals’ records by September 30
9. Percentage of individuals issued SSA-Initiated PEBES as required by law

To evaluate the nine SSA performance indicators established by SSA to comply with
GPRA, PwC was contracted to:

•	 Gain an understanding and document the current FY 1999 system sources from
   which data is collected to report on the specified performance measures;
•	 Identify and test critical controls (both electronic data processing (EDP) and manual)
   of current FY 1999 systems from which the specified performance data is generated;
•	 Test the accuracy of the underlying FY 1998 data for each of the specified
   performance measures;
• Recalculate each specific FY 1998 measure to ascertain its mathematical accuracy;
•	 Evaluate the impact of any relevant findings from prior and current audits with
   respect to SSA's ability to meet performance measure objectives; and
•	 Identify findings relative to the above procedures and make suggestions for
   improvement.

This is one of six separate stand-alone reports, corresponding to the following SSA
process, performance measure (PM), and Contract Identification Number (CIN):

•   Representative-Payee Actions (PM #5)               A-02-99-01010

This report reflects our understanding and evaluation of the representative payee
actions process. The report is organized in the following manner. The next section
titled "Results of Engagement" identifies our findings and explains their relevance to


                                            1

SSA performance measurement. It also provides recommendations and suggestions
for improvement. The subsequent "Other Matters" section discusses the relevance of
each performance measure with respect to GPRA. All other information is contained in
the appendices, as follows:

APPENDIX A – Background
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Performance Measure Summary Sheets
APPENDIX E – Performance Measure Process Maps


RESULTS OF ENGAGEMENT

During the period of June 9, 1999 to October 1, 1999, we evaluated the current
processes, systems and controls, which support the FY 1999 SSA performance
measurement process. In addition, we determined the accuracy of the underlying
performance measure data. Since FY 1999 data were not always available, we often
used FY 1998 data to perform our testing. Although SSA was not required to comply
with GPRA until FY 1999, they voluntarily reported results in the FY 1998 Accountability
Report for Representative Payee Actions. As a result, we were able to use our
knowledge of current processes, systems, and controls to judge the accuracy of the
performance measures based on the FY 1998 results.

Our evaluation allowed us to determine that the reported FY 1998 result of the
performance measure tested (as itemized below) was reasonably stated.

   Performance Measure                                      Reported Result
   5. Representative Payee Actions                                7,063,595

However, we did note the following nine opportunities for improvement, listed in order of
their relative importance:

1.	 SSA lacks sufficient performance measure process documentation and did not retain
    documents to support the FY 1998 amounts
2. SSA has a number of data integrity deficiencies
3. SSA's system environment has security deficiencies
4. This performance measure could better reflect agency performance
5.	 GPRA documents prepared for external evaluation of SSA performance do not
    clearly indicate the sources of the performance measures
6.	 A component was inadvertently omitted when calculating the total of one of the
    performance measures
7.	 The Cost Analysis System (CAS) procedural and systems documentation have not
    been updated
8. SSA has systems design and documentation deficiencies


                                            2

9. SSA has a number of deficiencies in their systems contingency plan

Additionally, we evaluated the appropriateness of the nine performance measures with
respect to the future requirements of GPRA. As a result, we noted three areas in which
SSA could better prepare itself to incorporate the final phases of GPRA in their
processes. These results are discussed below in the Other Matters section.

These items were noted as a result of our testing the underlying performance measure
data, as well as the EDP and manual controls of the systems generating the
performance measure data, and are discussed in detail below.

Throughout our evaluation of the nine performance measures, we noted the strong
commitment of SSA's staff to correctly implement GPRA.


1.	   SSA lacks sufficient performance measure process documentation and did
      not retain documents to support the FY 1998 amounts

GPRA requires that agencies "describe the means to be used to verify and validate
measured values." Furthermore, the Office of Management and Budget (OMB) Circular
No. A-123, Internal Control Systems, requires that "documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination." Finally, National Institute of Standards and Technology (NIST) Special
Publication 800-18, 5.MA.7, requires that system documentation be maintained as part
of a formalized security and operational procedures record. Therefore, agencies must
establish a clear methodology for verifying performance measure values, and retain the
appropriate documentation to enable an audit of their performance measure values
based on the methodology. Although this requirement was not effective for the FY 1998
Accountability Report, it is effective beginning in FY 1999.

While general policies and procedures exist for all documents produced at SSA (as
found in the SSA Administrative Instructions Manual System/Operational and
Administrative Record Schedules), SSA does not have formal policies and procedures
in place regarding the retention of performance measure documentation. During
testing, we noted that SSA lacked sufficient documentation regarding the processes
surrounding the accumulation and generation of performance indicator data.
Furthermore, SSA could not consistently provide the documentation necessary to verify
their performance measure values as reported in their FY 1998 Accountability Report.

Specifically, we noted that SSA was unable to provide a comprehensive process map
documenting the flow of performance measure data from the change in Representative
Payee (Rep Payee) information or the initiation of a Rep Payee accounting, through
either the Program Center Action Control System (PCACS, the system of record for
international Rep Payee events), or the Integrated Workload Management System
(IWMS, the system of record for non-international Rep Payee events), to the
accumulation of yearly performance measure data in the Cost Analysis System (CAS).



                                           3

Furthermore, neither the definition of a Representative-Payee, nor the actions that
comprise this count are clearly defined, and during testing we noted that few people at
SSA could define this performance measure or describe its composition.

If SSA does not establish a methodology for verifying performance measure values and
institute an adequate document retention system, they will not be in compliance with
GPRA. Furthermore, a significant lack of documentation does not provide a proper
audit trail to facilitate verification of the performance measures as required by GPRA.

Recommendations:
We recommend that SSA expand the role of Office of Strategic Management (OSM)
with respect to performance measures or place ownership for the performance measure
process and reporting within an organizational unit. In either case, data ownership
would still remain with the user organizations. However, an organizational unit should
be accountable for the overall performance measure processes and results. Their
charter should include the following responsibilities:

•	 Identify and document the processes surrounding the generation and accumulation
   of performance measure values. This would establish a clear method for verifying
   and validating the performance measures

•	 Establish policies and procedures surrounding the retention of performance measure
   documentation. The documentation retained should allow for the timely verification
   of the performance measure values, and should be maintained for at least one year

•	 As new systems are developed, evaluate their potential impact on the accumulation
   of performance measure data. Systems with potential impact should be designed to
   include the means of producing a verifiable audit trail to validate the performance
   measure results as they are defined in the Accountability Report


2.    SSA has a number of data integrity deficiencies

OMB Circular No. A-127, Financial Management Systems, requires that a Federal
Agency's systems include a system of internal controls to ensure that the data used to
produce reports is reliable. During our FY 1999 Financial Audit, we noted a number of
data integrity deficiencies that result in a lack of control over both the input and
maintenance of data, as well as the resolution of suspense items. While an adverse
effect upon performance measure data was not observed during our testing, this lack of
control can affect the validity and completeness of the performance measures as
follows:

•	 When DACUS (Death, Alert, and Control Update System) receives death information
   and compares it to SSA’s NUMIDENT, MBR, SSR, and Black Lung databases
   without a successful match, the record is posted to the DACUS exception file.
   However, no subsequent follow-up is performed on items in this exception file to try


                                           4

   to resolve any matches that may not have been detected based on the automated
   matching algorithm. While this data may not have a direct effect on the performance
   measures, a noted lack of data verification in these databases indicates the
   possibility that other data lacks integrity

•	 SSA’s current practice of obtaining death data does not ensure that this data is
   entered into DACUS accurately, timely, and only once (affects the NUMIDENT,
   MBR, and SSR). While this data may not have a direct effect on the performance
   measures, a noted lack of data verification in these databases indicates the
   possibility that other data lacks integrity

•	 A comparison of the MBR, SSR, and NUMIDENT identified a large number of cases
   where either the individual was alive and in current pay status on the MBR/SSR but
   listed as dead on the NUMIDENT, or the corresponding records of a given individual
   had significant differences in dates of death. While this data may not have a direct
   effect on the performance measures, a noted lack of data verification in these
   databases indicates the possibility that other data lacks integrity

•	 A comparison of the MBR, SSR, and NUMIDENT identified a large number of cases
   where the corresponding records of a given individual had significant differences in
   dates of birth. While this data may not have a direct effect on the performance
   measures, a noted lack of data verification in these databases indicates the
   possibility that other data lacks integrity

Recommendations:
As previously stated in the FY 1999 Accountability Report, we recommend the following:

•	 SSA should develop policies and procedures for the resolution of unmatched items
   in DACUS and establish a work group with primary responsibility for resolution. One
   of the duties of this group should be to analyze patterns in exceptions and facilitate
   the implementation of changes to the automated matching algorithm to make it more
   effective

•	 SSA should implement: 1) initiatives to reduce the amount of time required by
   outside sources for submitting death notifications, such as the electronic death
   certificate project currently being tested; and, 2) a method to prevent the submission
   or receipt of duplicate information, whether submitted from the same or different
   sources (DACUS, NUMIDENT, MBR, SSR)

•	 With the completion of the Year 2000 project in FY2000, SSA should begin
   implementation of DACUS Release 2 (a high priority of SSA’s five-year IRM plan), to
   provide functionality to automatically delete NUMIDENT death postings when a
   person is “resurrected” on the MBR and SSR (NUMIDENT, MBR, SSR)




                                            5

•	 SSA should firm up plans to implement the ICDB R2 functionality for the SSI system
   (SSR) to provide updated (substantiated) date of birth information to the NUMIDENT
   (NUMIDENT, MBR, SSR)




3.       SSA's system environment has security deficiencies

We noted in our FY 1999 Financial Audit that SSA’s systems environment remains
threatened by weaknesses in several components of its information protection internal
control structure. Because disclosure of detailed information about these weaknesses
might further compromise controls, we are providing no further details here. Instead,
the specifics are presented in a separate, limited-distribution management letter, dated
November 18, 1999. The general areas where weaknesses were noted are:

•	 The entity-wide security program and associated weaknesses in developing,
   implementing and monitoring local area network (LAN) and distributed systems
   security;

•    SSA’s mainframe computer security and operating system configuration;

•    Physical access controls at non-headquarter locations; and

•	 Certification and accreditation of certain general support and major application
   systems.

Until corrected, these weaknesses will continue to increase the risks of unauthorized
access to, and modification or disclosure of, sensitive SSA information. While these
weaknesses do not directly affect the performance measures, a risk still exists.
Unauthorized access to sensitive data can result in the loss of data associated with
SSA’s enumeration, earnings, retirement, and disability processes and programs, thus
affecting all performance measures.

Recommendations:
As previously reported in the FY 1998 Accountability Report, we recommend that SSA
accelerate and build on its progress to enhance information protection by further
strengthening its entity-wide security as it relates to implementation of physical and
technical computer security mechanisms and controls throughout the organization. In
general, we recommend that SSA:

•    Reevaluate its overall organization-wide security architecture;

•	 Reassess the security roles and responsibilities throughout the organization’s central
   and regional office components;



                                              6

•	 Assure that the appropriate level of trained resources are in place to develop,
   implement and monitor the SSA security program;

•	 Enhance and institutionalize an entity-wide security program that facilitates
   strengthening of LAN and distributed systems’ security;

•    Review and certify system access for all users;

•	 Enhance procedures for removing system access when employees are transferred
   or leave the agency;

•    Decrease vulnerabilities in the mainframe operating system configuration;

•    Implement the mainframe monitoring process;

•    Finalize accreditation and certification of systems;

•	 Develop and implement an ongoing entity-wide information security compliance
   program; and

•    Strengthen physical access controls at non-headquarters sites.

More specific recommendations are included in a separate, limited-distribution
management letter, dated November 18, 1999.


4.      This performance measure could better reflect agency performance

GPRA requires Federal agencies to "establish performance indicators to be used in
measuring or assessing the relevant outputs, service levels, and outcomes of each
program activity." Accordingly, the performance measures used should clearly
represent the outcome of the related performance goal. While GPRA-based metrics are
intended as external performance measurement tools, this must be balances by an
organization's ability to measure and improve its own performance from within. For
Performance Measure #5, numerous activities are included in one count. The count
includes selection of a representative payee (nonselects are also included in the count),
changes of payees, Representative Payee accountings, investigations of
Representative Payees, suspension of Representative Payees and change of
information for Representative Payee. The Representative Payee accounting process
includes accounting for Title II and Title XVI, as well as accounting for Representative
Payees who live abroad.

According to SSA performance planning documents, the objective of the measure is to
combat fraudulent actions on the part of Representative Payees. To accomplish that,
the measure looks at the total number of Representative Payee actions that occur within
a year to determine whether SSA is monitoring the actions associated with


                                               7

Representative Payees appropriately. While the measure might render a rough
indication of the level of activity directed toward Representative Payees, the results of
the measure are ambiguous because the inputs are obtained from such diverse
activities.

There are two interrelated reasons for this performance measure's ambiguity. First, this
metric is actually a workload input, which we acknowledge to be a generally useful
component of the performance planning process. However, in this case, the level of
effort required for the various types of work covered by this count vary greatly. For
example, the cost of processing a Representative Payee application is understandably
significantly different than the cost of performing an annual accounting of a
Representative Payee. Second, SSA must be able to gauge improvement for this
measure. However, this performance measure tracks a wide diversity of activities,
which does not facilitate the use of a single gauge for improvement.

Recommendations:
We recommend that SSA divide this performance measure into two separate metrics:
(1) Representative Payee Changes, and (2) Representative Payee Accounting. This
would result in two groupings of activities that would be more homogenous with respect
to cost and/or resource requirements. It would also be straightforward to implement
since the required data is already obtained and stored in the CAS system.


5.	    GPRA documents prepared for external evaluation of SSA performance
       could better document the sources of the performance measures

Since FY 1999, OMB circular A-11, Preparation and Submission of Strategic Plans,
Annual Performance Plans, and Annual Program Performance Reports, states that "the
annual plan must include an identification of the means the agency will use to verify and
validate the measured performance values." This suggests that an agency should detail
the source of performance data. SSA's documents prepared for external reporting,
including the 1997-2002 Strategic Plan, the FY 2000 Annual Performance Plan, and the
FY 1998 Annual Accountability Report, could better document the SSA sources used to
obtain the performance measures we evaluated.

In the case of three performance measures, the FY 2000 Annual Performance Plan, the
most recent document at the time of this evaluation, does list a data source for
Performance Measure #1 as "The End-of-Line Processing Report," a data source for
Performance Measure #3 as "The Title XVI Processing Time System," and a data
source for Performance Measure #8 as the "Earnings Posted Overall Cross Total/Year
to Date System (EPOXY)." However, the external stakeholder is not told of the origin of
these documents or of the underlying processes and programmatic systems that
produce the reported metrics. Furthermore, the sources of the other six measures are
not clearly indicated.

All nine metrics are referred to in the SSA documentation as GPRA indicators. As a
result, OMB Circular A-11, Section 220.12, requires that they be documented. By


                                             8

improving the description of the sources, SSA would enhance the credibility of the
underlying data used to formulate each performance measure.

Recommendation:
We recommend that SSA develop clear and concise descriptions of each performance
measure's source. As specifically recommended by OMB Circular A-11, these
descriptions should include:

•	 The current existence of relevant baseline data, including the time-span covered by
   trend data;
• The expected use of existing agency systems in the collection and reporting of data;
• The source of the measured data;
•	 Any expected reliance on an external source(s) for data, and identification of the
   source(s); and
•	 Any changes or improvements being made to existing data collection and reporting
   systems or processes to modify, improve, or expand their capability.


6.	   A component was inadvertently omitted when calculating the total of one of
      the performance measures

OMB Circular No. A-127, Financial Management Systems, requires that an Agency's
information systems (for both financial and performance measure information) include a
system of internal controls to ensure that "reliable data are obtained, maintained, and
disclosed in reports," and that the internal controls "be applied to all system inputs,
processing, and outputs." During our testing, we noted that the number reported for
International Representative Payee accountings was inadvertently omitted in the total
number of Representative Payee Actions reported in the FY 1998 Accountability Report.
The total number of Representative Payee Actions is manually calculated, but the
process is not reviewed to ensure accuracy. A lack of adequate control over the
process caused the total number of Representative Payee Actions to be understated in
the FY 1998 Accountability Report. Without adequate controls in place to ensure all
relevant amounts are included in the performance measure counts, SSA could misstate
the total counts as they appear in the Accountability Report.

Recommendations:
We recommend that SSA develop and implement a review process for the manual
calculation of the annual Representative Payee Action total count.


7.    CAS procedural and systems documentation have not been updated


OMB Circular A-127, Financial Management Systems, requires that all system
"documentation (software, system, operations, user manuals, operating procedures,
etc.) shall be kept up- to-date" and that "system user documentation shall be in


                                           9

sufficient detail to permit a person, knowledgeable of the agency's programs and of
systems generally, to obtain a comprehensive understanding of the entire operation of
each system. Technical systems documentation such as requirements documents,
systems specifications and operating instructions shall be adequate to enable technical
personnel to operate the system in an effective and efficient manner."

During our FY 1999 Financial Audit testing, we noted that the procedural and systems
documentation for CAS was not current, with the last update occurring in FY 1995.
Since this last update, two major changes have occurred: (1) a reorganization that
combined functions of the former Cost Analysis Branch and the former Budget Systems
Branch into the Division of Cost Analysis (DCA), and (2) migration of CAS to the
National Computer Center mainframe computer system. Thus, out-of-date
documentation could result in a situation where new and/or existing DCA employees do
not have adequate reference material to assist them in the timely and successful
completion of their job tasks/responsibilities. If SSA does not use CAS successfully, all
performance measure indicators accumulated using CAS (including #5) could be
affected. Data relating to the relevant performance measures may not be accumulated
correctly or completely. It should be noted that SSA is in the process of replacing CAS
piecemeal. As segments are replaced, SSA has obtained current systems
documentation (but not procedural documentation).

Recommendations:
We recommend that DCA explore alternatives for acquiring the resources needed to
update the existing CAS procedural and systems documentation, and to obtain
procedural documentation for the replacement systems.


8.     SSA has systems design and documentation deficiencies

During our FY 1999 Financial Audit testing, we noted specific systems design and
documentation deficiencies that indicate a lack of control over both the system design
and documentation. While these deficiencies do not have a direct effect on the
performance measures, a risk still exists. This lack of control affects the ability of SSA
to effectively design, implement, and use their computer systems. If SSA is not
effectively using their computer systems to accumulate and calculate performance
measures, the resulting performance measure amounts could be affected. Our specific
findings were:

•	 Full documentation of program changes evidencing user approval and testing was
   not always maintained. In addition, user initiation of changes to production
   programs could not be confirmed due to the absence of documentation indicating
   who initiated the changes;

•	 Software Engineering Technology (SET) did not establish different requirements for
   major development projects, routine maintenance, and cyclical changes; and




                                            10

•	 SSA’s System Security Handbook (Chapter 10 on Systems Access Security) does
   not list all of the acceptable forms for granting access to SSA’s computerized
   systems and data.

Recommendations:
As previously stated in the FY 1999 Accountability Report, we recommend the following:

•	 SSA should complete implementation of it's Validation Transaction Tracking System
   (VTTS) and continue with its plan to automate the process for submitting System
   Release Certification (SRC) forms

•	 SSA should complete implementation of Platinum's Process Engineering Tool (PET)
   and institutionalize Carnegie Mellon's Software Engineering Institute's Capability
   Maturity Model (CMM) methodology

•	 SSA should update its System Security Handbook (Chapter 10 on Systems Access
   Security) to address all of the acceptable forms for granting access to SSA’s
   computer systems and data


9.      SSA has a number of deficiencies in their systems contingency plan

As a result of the FY 1999 financial audit, we noted a number of deficiencies which, in
our view, would impair SSA’s ability to respond effectively to a disruption in business
operations as a result of a disaster or other long-term crisis. Although SSA has
performed a Business Impact Analysis, its list of critical workloads is still being finalized,
and recovery time objectives (RTOs) have not yet been established for each of the
critical workloads. Consequently, SSA has not established recovery priorities for all of
its systems in the mainframe and distributed environments. Further, the plan for
recovering the critical workloads still needs to be fully tested. Finally, SSA has not fully
updated the contingency plans for the headquarters site or finalized and tested
contingency plans for non-headquarters sites.

While deficiencies in a contingency plan does not directly affect performance measures,
a risk still exists. A failure to respond effectively to a disruption through proven recovery
procedures could affect both the quality and quantity of data used in the accumulation
and calculation of all performance measures.

Recommendations:
As previously stated in the FY 1999 Accountability Report, we recommend that SSA:

•	 Finalize the list of critical SSA workloads and fully test the plans for recovering each
   workload;

•    Establish RTOs for each critical workload;



                                              11

•	 Establish recovery priorities for all systems and applications (mainframe and
   distributed);

•     Update contingency plans for headquarters;

•	 Finalize and test SSA’s ultimate strategy for implementing and maintaining alternate
   processing facilities; and

•     Finalize and test contingency plans for non-headquarters sites.



OTHER MATTERS
As part of this evaluation, PwC was tasked to evaluate the appropriateness of the
performance measures. In this section, we discuss the relevance of each performance
measure with respect to GPRA and look to the future by evaluating SSA's readiness to
incorporate the final phases of GPRA into their processes.

1.	      Documents prepared for external evaluation of SSA performance could be
         improved to clearly explain the intended uses of the performance measures
         to comply with future GPRA requirements

The United States General Accounting Office (GAO) encourages agencies to "include
explanatory information on the goals and measures." 1 In addition, best practices in
performance measurement dictate that agencies should provide external stakeholders
with such information. Furthermore, it can be expected that agencies will be required to
provide such information in the near future as GPRA continues to evolve.

Over the past few years, SSA has continuously improved their performance planning
documents by adding in-depth discussions on their strategies and key performance
indicators. With respect to the performance metrics studied as part of this evaluation,
however, the 1997-2002 Strategic Plan, the FY 2000 Performance Plan, and the FY
1998 Annual Accountability Report do not clearly explain the intended purpose of each
performance measure with respect to evaluating overall SSA performance. In each
case, the documents clearly associate each metric with the strategic goals and
objectives that they support, but they do not explain to the external stakeholder exactly
how they are applied.

Describing the use of these performance measures would help to clarify the overall
objectives of the SSA strategic planning process and would clarify how the subject
metrics fit into that process.



1
    GAO/GGD/AIMD-99-69, "Agency Performance Plans"


                                             12

In a July 1999 report2, the General Accounting Office (GAO) rated Fiscal Year 2000
Annual Performance Plans of all federal agencies in three key elements of “informative
performance plans:”

1. Clear pictures of intended performance
2. Specific discussion of strategies and resources
3. Confidence that performance information will be credible

Although SSA was considered relatively strong as compared to most other agencies,
their weakest ratings were received for the categories of "Degree of Confidence that
Performance Information will be Credible" and "Specificity of Strategic Resources." Our
observations were consistent with these findings (see Item #5 in previous section,
Results of Engagement). However, if SSA develops clear and concise descriptions of
each performance measure's source and its intended strategic use, we believe they can
bolster their future GAO ratings relative to informative performance plans.




2.	      The nine performance measures are not explicit performance budgeting
         metrics, but are nonetheless appropriate internal performance indicators
         and are useful to the SSA strategic planning process

An important intent of GPRA in the future is to facilitate performance budgeting, which
will allow Federal agencies to allocate resources in an effort to achieve "optimal" results.
Consequently, agencies must develop measures that will help external stakeholders
such as Congress to match resources to performance.

Under GPRA requirements, an agency must rely on two distinctive types of measures:

         Outcome performance measures. These measures are intended to gauge the
         effectiveness of the organization at fulfilling its strategic goals. Often, however,
         these performance measures are not completely under the span of influence of
         the organization. Consequently, while they represent good measures of the
         accomplishment of a strategic goal, they do not reflect the success of an
         organization in contributing to the achievement of the goal.

         Workload and output performance measures.3 These measures are used to
         gauge the level of effort required for a given activity, including characteristics
         established as performance standards (e.g., Percent of OASI claims processed
         by the time the first regular payment is due or within 14 days from effective filing
         date, if later).

2
    GAO/GGD/AIMD-99-215, July 1999.

3
  The SSA documentation refers to such metrics strictly as outputs, but that is merely a matter of

semantics. In either case, they refer to a level of effort for a given activity.



                                                13

While outcome performance measures are often more accurate indicators of the
success or failure of an organization's strategic goals, it is workload and output
measures that fall under an organization's span of influence. Consequently, workload
and output measures are more often used in external reporting to support organizational
activities. However, these workload and output performance measures are seldom
related to either outcomes or amount of resources spent processing the workload or
creating the output. As a result, they represent little value to external stakeholders
making resource allocation decisions.

If viewed in isolation, none of the nine performance measures considered on this project
would suffice as explicit outcome performance measures for external stakeholders to
use in a resource allocation or performance budgeting oversight role. However, that is
not to say that these measures are not of value. In fact, they indicate to external
stakeholders, including congressional appropriators, customers, policy makers, and the
general public, how effective SSA is at fulfilling its overall mission. More importantly,
they serve a useful internal purpose in the SSA performance planning process. For
example, many of the measures we analyzed (Performance Measures 2, 4, 5, 6, and 7)
are workload counts, which are important for individual program managers when
making management decisions.

       Performance Measure #5. The SSA FY 1998 Accountability Report references
       this metric as "Other Workloads" supporting the strategic objective "to position
       the Agency's resources and processes to meet emerging workloads." This, in
       turn, supports the strategic goal "to make SSA program management the best in
       business, with zero tolerance for fraud and abuse." These uses are reiterated in
       Appendix 1 of the FY 2000 Annual Performance Plan.

       This measure is not particularly valuable to an external stakeholder for
       performance budgeting because it does not relate resource utilization to outputs
       or outcomes. However, it is clearly not intended for that purpose because the
       SSA documentation identifies it as an output measure for workloads and it does
       help to indicate the overall effectiveness of SSA at fulfilling its mission.

To SSA's credit, they have developed a number of useful performance measures in the
spirit of GPRA and have discussed them in proper detail in the FY 2000 Performance
Plan. 4 As we have shown, the nine performance measures covered by this project can
not be considered as true high-level, external measures. Nevertheless, they do appear
to have specific uses, as discussed above. Again, SSA would benefit the external
stakeholder by clarifying exactly what these intended uses are (see “Other Matters” item
#1).



4
  In earlier documents, such as the FY 1998 Accountability Report, SSA presented the
performance measures in a manner that seemed to give each one equal weight. In the more
recent documents, however, SSA has placed greater emphasis on the more high-level, outcome
oriented performance measures.


                                            14

3.	   SSA is positioned to be a leading performance-based budgeting
      organization and to meet the future requirements of GPRA

Since 1988, SSA has an established history of strategic planning, using specific
performance measurements. Building on this history, SSA implemented GPRA's
requirements for strategic planning, performance planning, and performance reporting.
One of GPRA's ultimate objectives is to facilitate performance budgeting, which will
allow Federal agencies to allocate resources in an effort to achieve "optimal" results.
Consequently, to help external stakeholders such as Congress match resources to
performance, agencies must eventually develop performance measures that are linked
to resource requirements.

Performance budgeting is the analysis of performance measurement data for the
purpose of allocating budgetary resources more effectively. Specifically, performance
budgeting for GPRA is complete upon the submission of multiple resource-to-result
scenarios within one annual budget.

The final stage of GPRA implementation is the successful piloting of performance
budgeting at no less than five federal agencies. Currently, few federal agencies are
capable of acting as a performance budgeting pilot and this final stage of GPRA has
consequently been delayed. However, the Office of Management and Budget (OMB)
has recently designated SSA as one of the government-wide performance budgeting
pilot projects. Within SSA, the Continuing Disability Reviews program is the specific
activity covered by this designation. OMB considers the performance budgeting pilot
projects to be an opportunity to examine the feasibility and potential application of
several approaches to performance budgeting. In this context, OMB intends to use
performance and resource data provided by the pilots during development of the FY
2001 budget and to report to Congress on the results of the pilots no later than March
31, 2001, as required by GPRA. With proper planning and preparation, SSA is uniquely
positioned to be one of the first truly successful performance-based budgeting
organizations.

In anticipation of the next phase of GPRA, we believe SSA needs to develop a suitable
performance budgetary model by combining cost accounting concepts with performance
measurement methodology. A high-level description of one possible model is listed
below:

• SSA defines a set of reporting segments that represent all of their work.
• SSA maps their performance measurements to these specific reporting segments.
•	 SSA calculates person-hours associated with these reporting segments, so that all
   personnel within SSA are accounted for in the model.
•	 SSA builds the model around this data to allow for current resource to
   workload/result analysis and future resource to workload/result forecasting.

SSA could build this model at any level of detail: by resource type, resource location, or
any other classification methodology. By linking resources to performance goals at this


                                            15

level of detail, SSA would thus satisfy the annual performance-planning requirement for
specificity of strategies and resources, while striving to become the first agency to
successfully implement performance budgeting.




                                          16

                           APPENDICES


APPENDIX A – Background

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – Performance Measure Summary Sheets

APPENDIX E – Performance Measure Process Maps

                                                                              Appendix A

                             BACKGROUND

Government Performance and Results Act

The Government Performance and Results Act (GPRA) was enacted to increase
accountability in the Federal agencies. Prior to GPRA, Federal agencies lacked well-
defined program goals and adequate feedback regarding program performance. This
hindered Federal agencies in their efforts to increase program efficiency and
effectiveness, and prevented them from being accountable. Furthermore, this lack of
accountability on the part of the Federal managers prevented Congress from making
informed budgetary decisions. In order to increase accountability, GPRA required
Federal agencies to develop 5-year strategic plans, annual performance plans, and
annual performance reports.

 Strategic plans define an agency's mission in terms of their major functions and
operations. The agency's goals and objectives, and how they will be achieved by the
agency, must be included in their strategic plan. The strategic plan also describes the
quantifiable performance measures to be used by the agency, and how they relate to
the agency's goals and objectives.

Annual performance plans establish objective, quantifiable, and measurable
performance goals for an agency. These plans also describe the operational processes
and resources necessary to meet the performance goals, establish performance
indicators to measure the relevant outcomes, and provide a basis for comparing the
outcomes with the performance goals. The annual performance plans also provide a
means to validate and verify the measured outcomes.

Annual performance reports compare the actual program performance achieved with
the performance goals for each performance indicator defined in the agency's annual
performance plan. These reports contain the agency's evaluation of their performance
plan relative to the performance achieved during the fiscal year. If performance goals
have not been met, the agency must include an explanation, as well as a plan for
achieving the performance goals in the future. Alternatively, if the agency believes the
goals are impractical, they would include their rationale and recommended alternatives
in the annual performance report.

SSA's Performance Measures

The Social Security Administration (SSA) defined five strategic goals in it's FY 1998-
2002 strategic plan, Keeping the Promises:

1.	 Promote valued, strong, and responsive social security programs and conduct
    effective policy development, research, and program evaluation


                                           B-1

2. Deliver customer-responsive, world-class service
3.	 Make SSA program management the best in the business, with zero tolerance for
    fraud and abuse
4. Be an employer that values and invests in each employee
5. Strengthen public understanding of the social security programs

For each strategic goal, SSA's strategic plan also defined specific objectives to achieve
each of the goals.

SSA's FY 1998 annual GPRA performance report, published as part of their FY 1998
Accountability Report, includes actual performance data and goals for 57 performance
measures. PricewaterhouseCoopers was engaged to evaluate nine specific
performance indicators found in SSA's FY 1998 Accountability Report. The
performance indicators (or performance measures, as they are referred to in the
Accountability Report) are as follows:

1.	 Percent of OASI claims processed by the time the first regular payment is due or
    within 14 days from effective filing date, if later
2. OASI claims processed
3. Percent of initial SSI aged claims processed within 14 days of filing
4. SSI aged claims processed
5. Representative payee actions
6. SSN requests processed
7. Annual earnings items
8. Percent of earnings posted to individuals’ records by September 30
9. Percent of individuals issued SSA-Initiated PEBES as required by law

During testing, it was noted that the nine performance measures could be defined by
six distinct processes. The systematic flow of information for three of the measures was
almost identical to the flow of information for three other measures. Furthermore, these
groupings match those that the OIG has selected for generating their upcoming reports.
The six processes are as follows:

1.    RSI claims (performance measures #1 and #2)
2.    SSI aged claims (performance measures #3 and #4)
3.    Representative payee actions (performance measure #5)
4.    SSN requests processed (performance measure #6)
5.    Annual earnings items (performance measures #7 and #8)
6.	   Percent of individuals issued SSA-Initiated PEBES as required by law (performance
      measure #9)

This report represents our understanding and evaluation of the representative payee
actions process.

The representative payee process encompasses performance measure #5,
representative payee actions. Performance measure #5 includes the total number of



                                           B-2

representative payee actions performed during the fiscal year. An action can be either
a representative payee change (the selection or non-selection of a representative
payee, the change from one representative payee to another, the change of information
for a representative payee, investigations of representative payees, and the suspension
of a representative payee), or the mailing of the annual representative payee accounting
form to an individual representative payee. The representative payee actions include
Title II and Title XVI actions, as well as actions for representative payees who live
abroad. The objectives of this measure are to assist SSA in positioning their resources
and processes to meet emerging workloads, and to aggressively deter, identify, and
resolve fraud. These objectives relate to SSA's third strategic goal, "to make SSA
program management the best in the business, with zero tolerance for fraud and
abuse".

This performance measure is presented as a workload count, and includes every
representative payee action taken during the fiscal year. The FY 1998 performance
goal was 6,983,800 representative payee actions, and SSA reported the performance
result as 7,063,595 representative payee actions.

SSA is currently developing a Title II Redesign, which will impact the way Title II
representative payee actions will be processed through SSA's systems.

Performance measure #5 is obtained by combining counts from a myriad of systems
and processes. The flow of data for the Representative Payee Process is depicted in
Figure 3, and the process is shown in greater detail in Appendix E.




                                            B-3

                                   Representative Payee Process
                                                                                Post-Entitlement
                 Representative                                                                      Integrated Work
     Title II                      Work Management                                Management
                 Payee System                           WMS Database                                  Measurement                GETDOWR             B
    Change                          System (WMS)                               Information (PEMI)
                     (RPS)                                                                           System (IWMS)
                                                                                     System



                                                        Post-Entitlement
                 Representative                                                 Integrated Work
    Title XVI                      Centrally Located      Management
                 Payee System                                                    Measurement           GETDOWR                   B
    Change                            Traffic File     Information (PEMI)
                     (RPS)                                                      System (IWMS)
                                                             System



                                                       SSA-623 or 6230         CICS Rep-Payee                              Post-Entitlement
     Title II                                              Form to             Accounting Screen                             Management
                   CSRETAP           ROBOT File                                                      Transaction File                                A
   Accounting                                            Rep-Payee               (Field Office)                           Information (PEMI)
                                                                                 & ROBOT File                                   System

                                                                      to WBDOC
                                                          to WBDOC,
                                                           then PC8
                                                                                                                            Integrated Work
                                                                               WBDOC Scanner
                                                                                                     WB MI Report            Measurement             B
                                                                               or CICS Screen
                                                                                                                            System (IWMS)
                                                               C

                                                                      to WBDOC

                                                       SSA-623 or 6230                                                     Post-Entitlement
                      SSI            Supplemental          Form to               CICS SSI Data
    Title XVI                                                                                                                Management
                Redetermination     Security Record                               Input Screen       Transaction File                                A
   Accounting                                            Rep-Payee                                                        Information (PEMI)
                  Merge Run             (SSR)                                     (Field Office)
                                                                                                                                System




    Foreign      Program Center                                    Integrated Work                                                      Accountability
                                                                                                                 Cost Analysis
     Title II     Action Control   TSO GETPCACS          A          Measurement            GETDOWR                                         Report
                                                                                                                 System (CAS)
    Changes     System (PCACS)                                     System (IWMS)



                                                                                                         B
                       C




                                                                   Figure 3

There are two major types of actions: (1) Representative Payee Changes, which

includes applications for new Representative Payees, change of Representative Payee,

account information (address or phone number) changes, and investigations, and (2)

Representative Payee Accounting, which is the process of verifying that Representative

Payees are fulfilling their obligations. The Cost Analysis System (CAS) combines seven

components to obtain the performance measure. The seven components are derived

as follows:


Domestic Title II Representative Payee Changes

A Field Office Claims Representative can initiate Representative Payees Changes for a

Title II account by updating RPS (Representative-Payee System) with the RSEL CICS

screen. RPS then passes the transactional data to WMS, which stores relevant data in

the WMS database. The PEMI (Post-Entitlement Management Information) system

reads the transactional data in the WMS database and calculates summary counts.

PEMI then transfers the summary counts to IWMS and stores them as DOWR category

15. OFPO uses the GETDOWR module, which is part of the SSAMIS system, to obtain
DOWR 15 and subsequently enters it in the Cost Analysis System (CAS).


                                                                       B-4

Title XVI Representative Payee Changes

A Field Office Claims Representative can initiate Representative Payees Changes for a

Title XVI account by updating RPS (Representative-Payee System) with the RSEL

CICS screen. The CICS screen creates a record in a centrally located traffic file. The

PEMI (Post-Entitlement Management Information) system reads the transactional data

from the traffic file and calculates relevant summary counts. PEMI then transfers the

summary counts to IWMS and stores them as DOWR category 24. OFPO uses the

GETDOWR to obtain DOWR 24 and subsequently enters it in the Cost Analysis System

(CAS).


International Title II Representative Payee Changes
Many Title II beneficiaries that live abroad have a Representative Payee. Program
Service Center 8, which is located in Baltimore, handles Representative Payee
Changes and manages the work using the Program Center Action Control System
(PCACS). A Direct Service Employee (DSE) reviews each specific case and
determines the action(s) required. These actions are designated using TEOL (Type of
Event Level) Codes. The DSE then generates a PCACS Action Control Record (ACR)
and routes the package to the proper work station(s). The OIO Technicians use
relevant object programs to perform the required tasks. When the case is complete, the
OIO Technician clears the ACR from PCACS and PCACS subsequently increments the
cumulative total work counts for the corresponding TOEL Codes. OFPO uses TSO
GETPCACS to obtain counts from PCACS using the relevant TOEL Codes. OFPO then
enters these values into CAS.

Domestic Title II Representative Payee Accounting

The domestic Title II Representative Payee Accounting process is initiated when

CSRETAP reads the MBR (Master Benefit Record) and writes the universe of

Representative Payees to a file. The Representative Payee Accounting System then

reads this file and eliminates those individuals that are (a) both Title II and XVI, (b)

accounted for via onsite reviews, (c) self-payees, and (d) receiving foreign payments

(i.e., non-domestic). The system then writes the eligible Representative Payees to the

ROBOT file and sends the relevant information to a vendor for printing and distribution

of the SSA-623 and SSA-6230 forms.


Most of the Representative Payees fill out the form and return it to the Wilkes-Barre
Data Operations Center (WBDOC). That portion of the final count is discussed below
(see "Representative Payee Accounting Cleared at WBDOC"). However, there are two
scenarios in which the Field Offices clear the accounting forms. In the first scenario, a
Representative Payee desires help completing the form and visits the local Field Office.
In the second scenario, the Representative Payee does not respond to the first or
second notification. In this case, the WBDOC sends the Field Office a special alert and
they attempt to contact the Representative Payee and schedule him/her for a visit. In
both cases, the Field Office technician helps the Representative Payee fill out the SSA-
623 or SSA-6230 form and clears the Representative Payee using the CICS
Representative Payee Accounting screen. The CICS screen subsequently places an
indicator in the ROBOT file, and the Representative Payee is cleared from the system



                                           B-5

during the next nightly batch run. The system also writes information regarding the

completed transactions to a file that is sent electronically to OIM. The Post-Entitlement

Management Information (PEMI) system subsequently reads the transactional data,

calculates summary counts, and transfers the summary counts to IWMS. IWMS stores

the relevant summary count as DOWR Category 6. OFPO uses the GETDOWR

module to obtain DOWR 6 and subsequently enters it in the Cost Analysis System

(CAS).


Domestic Title II Representative Payee Accounting includes those cases where a

beneficiary lives in a foreign country, but the corresponding Representative Payee lives

in the United States.


Title XVI Representative Payee Accounting

The domestic Title XVI Representative Payee Accounting process is initiated when the

SSI Redetermination Merge Run selects Representative Payees to target for accounting

and creates an "AR" diary in each beneficiary's SSR. The Merge Run also formats print

records and writes them to a file. OTSO subsequently places the print files on a tape

cartridge and sends them to a vendor for printing and mailing of the SSA-623 form.


Most of the Representative Payees fill out the form and return it to the Wilkes-Barre

Data Operations Center (WBDOC). That portion of the final count is discussed below

(see "Representative Payee Accounting Cleared at WBDOC"). As with Title II, there are

two scenarios in which the Field Offices clear the accounting forms. The first case is

when the Representative Payee desires help completing the form and visits the local

Field Office. The second case occurs when the Representative Payee does not

respond to the first or second notification and the Field Office subsequently attempts to

contact the Representative Payee and schedule him/her for a visit.


In either case, the Field Office technician helps the Representative Payee fill out the

SSA-623 form and clears the Representative Payee using the CICS SSI Data Input

Screen. At this time, the CICS screen creates a transaction record in a centrally located

traffic file. The PEMI (Post-Entitlement Management Information) system reads the

transactional data from the traffic file and calculates relevant summary counts. PEMI

then transfers the summary counts to IWMS and stores them as DOWR Category 7.

OFPO uses the GETDOWR to obtain DOWR 7 and subsequently enters it in the Cost

Analysis System (CAS).


International Title II Representative Payee Accounting

The Office of International Operations (OIO) has jurisdiction over all cases where a

beneficiary lives in a foreign country, even if a corresponding Representative-Payee

lives in the United States. The processing of such forms is included in the total count.


The forms are generated, printed and mailed along with the other domestic Title II
Representative Payee accounting forms. Once the forms reach Wilkes-Barre, they are
screened along with the domestic forms. Those that appear to require no additional
work are either scanned or cleared with a CICS screen, and are included with the other



                                           B-6

WBDOC counts, as discussed below (see "Representative Payee Accounting Cleared

at WBDOC"). However, some of the forms require additional work and are

subsequently sent to PC 8 in Baltimore. A Direct Service Employee (DSE) reviews

each specific case and determines the action(s) required. These actions are

designated using TEOL (Type of Event Level) Codes. The DSE then generates a

PCACS Action Control Record (ACR) and routes the package to the proper work

station(s). The OIO Technicians use relevant object programs to perform the required

tasks. When the case is complete, the OIO Technician clears the ACR from PCACS

and PCACS subsequently increments the cumulative total work counts for the

corresponding TOEL Codes. OFPO uses TSO GETPCACS to obtain counts from

PCACS using the relevant TOEL Codes. OFPO then enters these values into CAS.


Representative Payee Accounting Cleared at WBDOC

Most of the domestic Title II and Title XVI Representative Payee Accounting Forms and

OIO Foreign Enforcement Forms are sent to the WBDOC and cleared using either the

scanner or a CICS screen. The total electronic counts for the forms cleared at WBDOC

are then reported to OIM via the WB MI report. OIM stores the counts in IWMS. OFPO

subsequently obtains the total yearly count from IWMS and enters the value in CAS.


Total Count

The Cost Analysis System (CAS) sums the components discussed above to obtain PM

#5. OFPO obtains PM #5 from CAS for inclusion in the Accountability Report.





                                         B-7

                                                                               Appendix B

               SCOPE AND METHODOLOGY

The SSA OIG contracted PricewaterhouseCoopers to evaluate nine of SSA's FY 1998
performance indicators established to comply with GPRA. This report reflects our
understanding and evaluation of the representative payee actions process, which
includes performance measure #5 (Representative payee actions). Testing was
performed from June 9, 1999 through October 1, 1999, as follows:

1.	 Gain an understanding and document the sources from which data is collected to
    report on the specified performance measures;
2.	 Identify and test critical controls (both EDP and manual) of systems from which the
    specified performance data is generated;
3.	 Test the accuracy of the underlying data for each of the specified performance
    measures;
4. Recalculate each specific measure to ascertain its mathematical accuracy; and
5.	 Evaluate the impact of any relevant findings from prior and current audits with
    respect to SSA's ability to meet performance measure objectives; and
6.	 Identify findings relative to the above procedures and make suggestions for
    improvement.

As a result of our reliance on prior and current SSA audits, our report contains the
results of internal control testing and system control deficiencies.

Limitations
Our engagement was limited to testing at SSA headquarter. Furthermore, when
recalculating the specific performance measures, we used FY 1998 data except when
SSA was unable to provide all the documentation necessary to fully evaluate the FY
1998 performance measure amounts reported in the Accountability Report. In those
cases, FY 1999 data was evaluated.

These procedures were performed in accordance with the AICPA's Statement on
Standards for Consulting Services, and is consistent with Government Auditing
Standards (Yellow Book, 1994 version).


1.	    Gain an understanding and document the sources from which data is
       collected to report on the specified performance measures

We obtained an understanding of the underlying processes and operating procedures
surrounding the generation of performance measures through interviews and meetings
with the appropriate SSA personnel and by reviewing the following documentation:




                                           B-1

i Policies and procedures manual for procedures surrounding the processing,
  accumulating, and reporting of the data for the nine performance measures;
i PwC system walk-through descriptions;
i SSA-provided system descriptions;
i Internal or external reports on the nine performance measures (including OIG, GAO,
  etc.); and,
i Review of any of the nine performance measures performed in conjunction with prior
  financial audits by PricewaterhouseCoopers.


2.      Identify and test critical controls (both EDP and manual) of systems from
        which the specified performance data is generated

Based on the understanding we obtained above in Methodology #1, we identified key
controls for the nine performance measures. For each of the nine performance
measures, the controls surrounding the following were tested (Note: in cases where
PricewaterhouseCoopers tested key controls as part of prior financial audits, findings
were updated, and testing was not reperformed):

Performance Measure #5: Representative payee actions

•    Representative Payee Accounting forms received at WBDOC and processed via
     CICS are removed from ROBOT file
•    Representative Payee Accounting forms received at WBDOC and processed via the
     scanner are removed from ROBOT file
•    Title II Representative Payee Accounting actions processed via a Field Office are
     transferred to the PEMI application and ultimately into IWMS
•    Title XVI Representative Payee accounting actions processed via a Field Office are
     transferred to the PEMI application and ultimately into IWMS
•    Title II and Title XVI Representative Payee Changes processed via a Field Office are
     transferred to the PEMI application and ultimately into IWMS
•    Title II and Title XVI Representative Payee Accounting transmission of WB MI
     Report from WBDOC to OIM
•    Representative Payee International Accounting actions transfer into CAS
•    Representative Payee International Changes actions transfer into CAS
•    Applicable application controls
•    Applicable general computer controls
•    Current procedural and systems documentation for CAS

All Performance Measures

•    Formation of specific systems requirements for different major development projects,
     routine maintenance, and cyclical changes
•    Information protection control structure (system security)
•    SSA's systemic contingency plan


                                           B-2
•    Documentation of program changes evidencing user approval and testing
•    SSA's System Security Handbook


3.      Test the accuracy of the underlying data for each of the specified
        performance measures

Based on the understanding we obtained above in Methodology #1, we identified key
files, databases, and reports for the nine performance measures. To ensure data
availability and to evaluate the data, Computer Assisted Audit Techniques (CAATs)
testing was performed for each of the nine performance measures as follows:

Performance Measure #5: Representative payee actions

•    Compared the before and after ROBOT file to ensure file was updated;
•    Compared CSREPRET.R0909 file to ROBOT.G1574 file to ensure ROBOT file was
     updated;
•    TITLE II REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file with
     the IWMS file to ensure the two record counts were equal;
•    TITLE XVI REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file
     with the IWMS file to ensure the two record counts were equal; and
•    TITLE II & XVI REPRESENTATIVE PAYEE CHANGES - Compared the PEMI file
     with the IWMS file to ensure the two record counts were equal.


4.      Recalculate each specific measure to ascertain its mathematical accuracy

Based on the understanding we obtained above in Methodology #1, we requested and
reviewed documentation to ensure the mathematical accuracy of the nine performance
measures as follows:

Performance Measure #5: Representative payee actions:

•    Traced the performance measure value per the FY 1998 CAS Report to the number
     reported in the FY 1998 Accountability Report; and
•    Traced the performance measure IWMS value to the values in the FY 1998 CAS
     Report.


5.      Provide OIG management with a written report identifying findings relative
        to the above procedures and with suggestions for improvement

Based upon the evaluation performed, as outlined in the four above methodologies,
PricewaterhouseCoopers has prepared a written report detailing the internal control
deficiencies in SSA's performance measurement systems, as well as inaccuracies in
SSA data used to report on the nine selected performance measures.


                                         B-3
PricewaterhouseCoopers has also provided recommendations to address the system
deficiencies and data inaccuracies noted during the performance of the agreed upon
procedures.


6.      Evaluate the impact of any relevant findings from prior and current audits
        with respect to SSA's ability to meet performance measure objectives


PricewaterhouseCoopers has noted five relevant findings from prior and current audits
that may impact SSA's ability to meet performance measure objectives. All findings
were noted in our FY 1999 financial audit. The relevant findings impact all performance
measures, and are as follows:

•    SSA has a number of data integrity deficiencies
•    SSA's system environment has security deficiencies
•    CAS procedural and systems documentation have not been updated
•    SSA has systems design and documentation deficiencies
•    SSA has a number of deficiencies in their systems contingency plan




                                          B-4
                                                                            Appendix C

                      AGENCY COMMENTS

January 28, 2000


James G. Huse, Jr.
Inspector General

William A. Halter
Deputy Commissioner


Office of the Inspector General (OIG) Draft Report, "OIG Performance Measure Review:
Summary of PricewaterhouseCoopers (PwC) LLP Review of SSA’s Performance Data”

We appreciate the opportunity to comment on the draft summary report. We also
appreciate the OIG/PwC acknowledgement that SSA has developed a number of useful
performance measures in the spirit of the Government Performance and Results Act
(GPRA) and has discussed them in proper detail in the FY 2000 Performance Plan.

Further, we appreciate the report’s stated intention to provide SSA with suggestions
which may assist us in preparing for the final phases of GPRA. However, we believe
the report should more clearly state throughout that current GPRA requirements were
not in effect during FY 1998, the year for which the data were examined, and that it
would therefore be inappropriate to extrapolate the findings to SSA’s implementation of
GPRA for FY 1999 or FY 2000.

The GPRA statute requires that certain elements be included in annual performance
plans and that other elements be included in annual performance reports. GPRA
further requires that agencies prepare annual performance plans that set out specific
performance goals for FYs beginning with 1999. It also requires that agencies report
annually on performance compared to goals, with the first report due in March 2000, to
cover FY 1999. As mentioned above, the requirements of GPRA, including a
description of the means employed to verify and validate the measured values used to
report on program performance, were not in effect for FY 1998. SSA’s efforts in this
area were preliminary, and have significantly evolved with our FY 1999 and FY 2000
GPRA documents.

For FY 1998, and as we were moving toward preparation of our first GPRA Strategic
Plan and our Annual Performance Plan for FY 1999, SSA published a Business Plan.
We stated in our Business Plan that for FY 1998 we were including performance



                                          C-1
measures for which we had measurement systems in place and current performance
information. We also included related output measures for several priority workloads.

Although not a GPRA requirement, we also elected to report in our FY 1998
Accountability Report on those FY 1998 goals which we decided to include in our FY
1999 Annual Performance Plan. We did not however, meet all the requirements for an
Annual Performance Report in that document nor was it our intention to do so. We are
concerned that implicit in many of the report’s recommendations is the erroneous
conclusion that SSA should have complied, in 1998, with statutory requirements that
were not yet in effect. We believe that all GPRA requirements are met, as required by
statute, by our recently released FY 1999 GPRA Performance Report.

Finally, as you know, 30 of the 40 recommendations contained in the subject audit
report are either exactly duplicative or very nearly duplicative of recommendations
contained in past financial statement audit reports. Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response. We will, of course, continue our efforts to
implement corrective actions, as appropriate, and to provide status reports until
completed.

As you indicate, SSA is positioned to be a leading performance based budgeting
organization and to meet the future requirements of GPRA. The Office of Management
and Budget has designated SSA as a pilot project for performance budgeting. The
continuing disability reviews program is the specific activity covered by this designation
and the time period covered will be FY 2001. We anticipate that our participation will
enrich the learning from the government-wide pilot with regard to the feasibility and
impacts of performance based budgeting.

Attached are specific comments to the draft report. Staff questions may be referred to
Odessa J. Woods on extension 50378.



Improvement Area 1--SSA lacks sufficient performance measure process
documentation and did not retain documents to support the FY 1998 amount.

Recommendation 1

1.     We recommend that SSA place ownership for the performance measure process
and reporting within an organizational unit. Data ownership would still remain with the
user organizations. However, an organizational unit should be accountable for the
overall performance measure processes and results. Their charter should include the
following responsibilities:




                                           C-2
•   Identify and document the processes surrounding the generation and accumulation
    of performance measure values. This would establish a clear method for verifying
    and validating the performance measures.

•   Establish policies and procedures surrounding the retention of performance measure
    documentation. The documentation retained should allow for the timely verification
    of the performance measure values, and should be maintained for at least one year.

•   As new systems are developed, evaluate their potential impact on the accumulation
    of performance measure data. Systems with potential impact should be designed to
    include the means of producing a verifiable audit trail to validate the performance
    measure results as they are defined in the Accountability Report.

Response to Recommendation 1

We agree in concept with this recommendation. SSA’s Office of Strategic Management
(OSM) is responsible for coordinating the Agency’s GPRA activities. In addition, we will
continue to work to improve the development and retention of the kind of documentation
needed for external audits of our performance measures.


Improvement Area 2--SSA has a number of data integrity deficiencies.

Recommendations 2-10

Response to Recommendations 2 - 10

These recommendations are either a direct reprint of the recommendations contained in
PricewaterhouseCoopers' (PwC) FY 1998 Management Letter, Part 2 or a reiteration
containing only minor editorial changes.

Recommendation 7

•   SSA should develop policies and procedures for the resolution of unmatched items
    in DACUS and establish a work group with primary responsibility for resolution. One
    of the duties of this group should be to analyze patterns in exceptions and facilitate
    the implementation of changes to the automated matching algorithm to make it more
    effective

Response to Recommendation 7

We agree that a workgroup should be established to determine DACUS exception
patterns and make recommendations on changes in matching routines, as appropriate.
The workgroup will be led by the Office of Systems Requirements with involvement from
others impacted components. We have already determined that gender should be
deleted as a matching item and plan to implement this change before the Year 2000


                                           C-3
moratorium. DACUS Release 5 will be the vehicle for implementing changes
recommended by the workgroup.

Recommendation 8

•   SSA should implement: 1) initiatives to reduce the amount of time required by
    outside sources for submitting death notifications, such as the electronic death
    certificate project currently being tested; and, 2) a method to prevent the submission
    or receipt of duplicate information, whether submitted from the same or different
    sources (DACUS, NUMIDENT, MBR, SSR)

Response to Recommendation 8

We partially agree with this recommendation. We agree with the first bulleted item. We
have provided for Systems support for an Electronic Death Certificate process in the
appropriate 5-Year plans.

We request the auditors reconsider its recommendation contained in the second
bulleted item. The recommendation to prevent receipt/issuance of duplicate death data
concerning the same individual from multiple sources is technically impossible. To
prevent reporting duplication, it would require that all agencies have direct, interactive
access to the SSA databases, which is not advisable. Even that would not prevent
individual sources such as family members and funeral directors also from reporting on
someone previously reported by an agency. (There is no way to “receive” only certain
records on a given file.)

SSA only pays State Bureaus of Vital Statistics for death data and then only if it is the
first report of death. In future DACUS analysis efforts, we will examine the MI for State
data to ensure that it is properly identifying only those records for which payment is due.

Recommendation 9

•   With the completion of the Year 2000 project in FY 2000, SSA should begin
    implementation of DACUS Release 2 (a high priority of SSA’s five-year IRM plan), to
    provide functionality to automatically delete NUMIDENT death postings when a
    person is “resurrected” on the MBR and SSR (NUMIDENT, MBR, SSR)

Response to Recommendation 9

We agree. We expect to complete Year 2000 DACUS activities in early 1999. We will
then develop the schedule for DACUS Release 2 and include the dates in the 3/99
update of the Enumeration/Client 5-Year plan.

We also would like to clarify item C as the Findings section is inaccurate. Date of death
processing was not a part of Release 2 of ICDB in 8/97 for title II or XVI. However, we
did do a special clean-up of MBR and SSR death data to the Numident in 1998. This is


                                           C-4
what accounts for the vast drop in discrepant cases. The remaining cases failed the
automated matching routines, generally because of significant differences in names.
Manual investigation would have to be undertaken to determine if the individuals are
indeed the same person. We also note that SSA policy requires investigation of date
discrepancies only when they would be significant to a finding of overpayment; i.e.,
when a person has already been terminated for another reason such as disability
cessation, a later death date would have no impact.

Recommendation 10

•   SSA should firm up plans to implement the ICDB R2 functionality for the SSI system
    (SSR) to provide updated (substantiated) date of birth information to the NUMIDENT
    (NUMIDENT, MBR, SSR)

Response to Recommendation 10

We request the auditors reconsider its recommendation as it is inaccurate. Date of birth
processing was included in ICDB Release 2 in 8/97 for both Title II and XVI initial claims
cases; there is no outstanding need to develop this capability for SSI cases. What does
remain is the clean-up of the pre-existing data as described in III. 6. General above.
That “mass saturation” was NOT done in 6/98 as stated by PwC. What was executed in
1998 was the clean-up of existing dates of death.


Improvement Area 3--SSA's system environment has security deficiencies.

Recommendations 12-22

Response to Recommendations 12-22

These recommendations are direct reprints of findings and recommendations contained
in PwC’s FY 1999 report on management's assertion about the effectiveness of internal
control.

Recommendation 12

As previously reported in the FY 1999 Accountability Report, we recommend that SSA
accelerate and build on its progress to enhance information protection by further
strengthening its entity-wide security as it relates to implementation of physical and
technical computer security mechanisms and controls throughout the organization. In
general, we recommend that SSA:

•   Reevaluate its overall organization-wide security architecture;




                                           C-5
Response to Recommendation 12

SSA agrees with this recommendation and is initiating a full reassessment of its
organization-wide security architecture to ensure that vulnerabilities, especially those
introduced by new technology, are being addressed. This strategic reassessment will
allow SSA to identify any additional initiatives needed to upgrade its programs.
Enhancements to the existing architecture resulting from this activity will be
implemented and communicated to all SSA components.

Recommendation 13

•   Reassess the security roles and responsibilities throughout the organization’s central
    and regional office components;

Response to Recommendation 13

SSA agrees with this recommendation and is currently reassessing security roles and
responsibilities. Recently, SSA elevated the organizational structure of the entity for
information systems security within the Office of Finance, Assessment and
Management. Also, within the Office of Operations, a higher level security oversight
group was formed and there was a reassessment of regional security officer roles to
emphasize the increased importance of their roles.

Recommendation 14

•   Assure that the appropriate level of trained resources are in place to develop,
    implement and monitor the SSA security program;

Response to Recommendation 14

SSA agrees with this recommendation and has enhanced security training by directing
additional funds toward new security training courses for both Headquarters and
regional security staffs. In addition, the Office of Systems is taking steps to improve its
security program by obtaining additional expertise via contractor services.

The additional training and the organizational refocusing discussed above will ensure
the appropriate level of trained resources are in place to develop, implement and
monitor the SSA security program.

Recommendation 15

•   Enhance and institutionalize an entity-wide security program that facilitates
    strengthening of LAN and distributed systems’ security;




                                            C-6
Response to Recommendation 15

SSA agrees with the recommendation and has been working diligently on improvements
in this area. SSA will continue to enhance and institutionalize the entity-wide security
program through a series of enhancements to the mainframe, LAN and distributive
systems. The enhancements will include: improved monitoring of access controls,
particularly in field activities; full implementation of the Enterprise Security Interface;
administrative monitoring and penetration testing.

Recommendation 16

•   Review and certify system access for all users;

Response to Recommendation 16

SSA agrees with this recommendation and continues to make progress in this area.
The Office of Systems continues to work aggressively to adjust access rights under its
Standardized System Profile Project.

Recommendation 17

•   Enhance procedures for removing system access when employees are transferred
    or leave the agency;

Response to Recommendation 17

SSA agrees with this recommendation and will continue to improve our procedures and
the comprehensive processes already in place for removing system access when
employees are transferred or leave the Agency.

Recommendation 18

•   Decrease vulnerabilities in the mainframe operating system configuration;

Response to Recommendation 18

SSA agrees with this recommendation and will continue to evaluate our mainframe
operating system configuration and initiate changes to protect against threats, both
deliberate and nonintentional.

Recommendation 19

•   Implement the mainframe monitoring process;




                                           C-7
Response to Recommendation 19

SSA agrees with this recommendation. As acknowledged earlier in the report, SSA has
established the SMART Report, which is distributed to the security officers responsible
for the groups using the systems. While most users are in non-Headquarters offices, all
users, including those in central office, are tracked and monitored. Procedures have
been distributed which focus the reviews on specific types of transaction scenarios,
thereby making the SMART system a more useful security management and
enforcement tool. We agree that additional enhancements for increased use of the
report can be made both in the field and in central office. We will continue to improve
the use of the report to monitor inappropriate access to SSA's systems.

Recommendation 20

•   Finalize accreditation and certification of systems;

Response to Recommendation 20

SSA agrees with this recommendation and either certified or recertified all of SSA's
sensitive systems in July 1999.

Recommendation 21

•   Develop and implement an ongoing entity-wide information security compliance
    program; and

Response to Recommendation 21

SSA agrees with this recommendation and has a number of existing and planned
programs to monitor compliance with security policies and procedures. In addition to
automated controls, SSA also monitors compliance through programmatic and systems
audits, financial systems reviews, and other internal studies and reviews.

SSA has make progress in developing the Comprehensive Integrity Review Process
(CIRP) system that will consolidate integrity review functions into a single automated
facility where transactions will be screened against specific criteria. The criteria include
cross-application criteria and can be changed to concentrate on emerging trends. SSA
remains committed to ongoing enhancement and implementation of the CIRP system.

Recommendation 22

•     Strengthen physical access controls at non-headquarters sites.

Response to Recommendation 22




                                            C-8
SSA agrees with this recommendation and is committed to strengthening security at
non-Headquarters sties. We are in the process of enhancing the badging procedures
and policy enforcement in the regions and other major non-Headquarters facilities. In
addition, the Agency, through its security tactical plan, has been working to increase
physical security at the National Computer Center (NCC) and SSA facilities around the
country.


Improvement Area 4--Three of SSA's performance measures could better reflect
agency performance.

Performance Measure #5—Representative Payee Actions

Recommendation 23

We recommend that SSA divide this performance measure into two separate metrics:
(1) Representative Payee Changes, and (2) Representative Payee Accounting. This
would result in two groupings of activities that would be more homogenous with respect
to cost and/or resource requirements. It would also be straightforward to implement
since the required data is already obtained and stored in the CAS system.

Response to Recommendation 23

We disagree. “Rep payee actions” is, as stated, a major budgeted workload, not an
individual workload. Many budgeted workloads consist of more than one type of action
with separate process counts. We do not believe that subdividing the output measure
of this budgeted workload would be useful or consistent with the intent of this section of
the Annual Performance Plan.


Improvement Area 5--GPRA documents prepared for external evaluation of SSA
performance do not clearly indicate the sources of the performance measures.

Recommendation 26

We recommend that SSA develop clear and concise descriptions of each performance
measure's source.

Response to Recommendation 26

We agree that reporting documents prepared for public consumption should contain, in
lay terms, clear descriptions of the sources of our performance measures. We will
consult with your office to determine where you believe this is not the case. In addition,
we would note that, our documents comply with the requirements of GPRA with regard
to appropriate level of documentation of the sources for external audiences. The A-11
guidance specifically recommends the following information on data sources:



                                           C-9
•   The current existence of relevant baseline data, including the time-span covered by
    trend data;
•   The expected use of existing agency systems in the collection and reporting of data;
•   The source of the measured data;
•   Any expected reliance on an external source(s) for data, and identification of the
    source(s); and
•   Any changes or improvements being made to existing data collection and reporting
    systems or processes to modify, improve, or expand their capability.

SSA’s FY 2000 Annual Performance Plan meets all these requirements.

Where additional, technical detail describing underlying processes and programmatic
systems that produce the reported metrics are needed by OIG and GAO auditors, we
will continue to make this detail available.


Improvement Area 7--A component was inadvertently omitted when calculating
the total of one of the performance measures.

Recommendation 30

We recommend that SSA develop and implement a review process for the manual
calculation of the annual Representative Payee Action total count.

Response to Recommendation 30

We agree. The problem identified during the instant OIG review concerning
International Representative Payee Accounting has been corrected. A review process
has also been implemented to validate the manual calculation.


Improvement Area 8--The Cost Analysis System's (CAS) procedural and systems
documentation have not been updated.

Recommendation 31

We recommend that DCA explore alternatives for acquiring the resources needed to
update the existing CAS procedural and systems documentation, and to obtain
procedural documentation for the replacement systems.

Response to Recommendation 31

This recommendation was included as a recommendation contained in PwC’s FY 1998
Management Letter, Part 2.




                                          C-10
We agree and will pursue alternatives for acquiring the resources needed to update
CAS procedures, manuals, handbooks and documentation. SSA is also initiating an
effort to design and implement an agency-wide managerial cost accountability process
and system which will eventually subsume the functions of the CAS.


Improvement Area 9--SSA has systems design and documentation deficiencies.

Response to Recommendations 32 - 34

These recommendations are equivalent to recommendations contained in PwC’s
FY 1998 Management Letter, Part 2.

Recommendation 32

We recommend the following:

•   SSA should complete implementation of it's Validation Transaction Tracking System
    (VTTS) and continue with its plan to automate the process for submitting System
    Release Certification (SRC) forms

Response to Recommendation 32

We agree and believe the first portion of this recommendation is complete. Systems
began using VTTS in 1996 for selected validations. In October 1998, its use became
mandatory for all validations. VTTS has been converted to SQL and is available for all
systems. Evaluation will continue to make it more useful and flexible.

Target dates for automating the SRC forms submission process are now in place.
Prototype automated change control procedures are currently being tested and
evaluated which will satisfy the second portion of this recommendation. We expect to
complete evaluation of the prototype design by Spring 1999. (The prototype evaluation
was staged to include various life cycle development projects, e.g., new software
development (online and batch), maintenance, cyclical projects.) We are currently
setting up the evaluation of a maintenance type project.
Upon completion of the prototype evaluation, design changes resulting from the
evaluation will be incorporated into the automated procedures, software changes to this
process will be made, and we will then roll out the process on a project by project basis.
We expect to begin roll out by late Summer 1999.

Recommendation 33

•   SSA should complete implementation of Platinum's Process Engineering Tool (PET)
    and institutionalize Carnegie Mellon's Software Engineering Institute's Capability
    Maturity Model (CMM) methodology




                                           C-11
Response to Recommendation 33

We agree but believe it is too early in the implementation process to provide a date for
complete implementation.

Presently, SET standards require documenting software changes. Nevertheless, we
are developing a more robust mechanism to support SSA’s Information Technology (IT)
infrastructure.

We are committed to software process improvement using Carnegie Mellon’s Capability
Maturity Model (CMM). We have also procured the PLATINUM Technology, Inc.’s
Process Engineering Tool (PET). When fully implemented, PET will replace and expand
upon the foundation built by SET.

With PET integrated within our CMM approach, SSA is building the foundation for a
comprehensive software process improvement infrastructure that goes well beyond the
objectives of SET. This infrastructure will create an environment that encourages,
supports and provides assurance that we are continuously making improvements in the
quality of software, productivity of the software development staff, and timeliness of
software delivery. This will be done by improving project management skills and
approaches; defining IT Processes based on SSA and industry best practices;
supporting the use of metrics; and continuously improving IT processes.

Three CMM pilot projects are well underway and using SSA developed documented
procedures required for compliance with CMM Level 2 Key Process Areas (KPAs).
KPAs indicate where an organization should focus to improve its software process and
identify the issues that must be addressed to achieve the next maturity level. The KPAs
at Level 2 focus on the software project’s concerns related to establishing basic project
management controls. These KPAs are:

•   Requirements management
•   Software project planning
•   Software project tracking and oversight
•   Software subcontract management
•   Software quality assurance
•   Software configuration management

Processes for all of these KPAs have been developed for iterative lifecycle projects and
are available to the pilot project teams over the Web and in the PET tool. DCS is in the
process of identifying additional similar “rollout” projects to begin in 1999, which will use
these processes to achieve CMM Level 2 compliance. In addition, processes will be
developed and pilots initiated in 1999 for the following types of project:

•   Programmatic CICS and Batch
•   Administrative Development
•   Maintenance without established baselines


                                            C-12
•   Legislative and Notices

These processes will be developed using the PET tool and its rich repository of best
practices and process techniques as the delivery mechanism for CMM. It will be
available to the projects over the WEB.

Recommendation 34

•   SSA should update its System Security Handbook (Chapter 10 on Systems Access
    Security) to address all of the acceptable forms for granting access to SSA’s
    computer systems and data

Response to Recommendation 34

We agree. Chapter 10 of the its System Security Handbook lists the SSA-120 as the
only security form acceptable. There may be other non-security forms being used for
non-security purposes, but they are not appropriately included in the SSH.


Improvement Area 10--SSA has a number of deficiencies in their systems
contingency plan.

Response to Recommendations 35 – 40

These recommendations are direct reprints of recommendations contained in PwC’s
FY 1999 report on management's assertion about the effectiveness of internal control.

Recommendation 35

As previously stated in the FY 1999 Accountability Report, we recommend that SSA:

•   Finalize the list of critical SSA workloads and fully test the plans for recovering each
    workload;

Response to Recommendation 35

SSA agrees with this recommendation. SSA recently reevaluated and confirmed its
critical workloads. Testing that will determine recoverability of all identified critical
workloads is scheduled for July 2000.

Recommendation 36

•   Establish RTOs for each critical workload;

Response to Recommendation 36



                                            C-13
SSA agrees with this recommendation. It is SSA's goal to provide users with a fully
integrated set of software to process each critical workload as rapidly as possible. As
part of our July 2000 test, we plan to assess and determine realistic timeframes and
sequences for restoring critical workloads. These objectives will be incorporated into
the next iteration of the Disaster Recovery Plan (DRP). Subsequent DRP iterations will
include timeframes and other supporting information.

Recommendation 37

•   Establish recovery priorities for all systems and applications (mainframe and
    distributed);

Response to Recommendation 37

SSA agrees with this recommendation and continues to work to establish recovery
priorities for all mainframe and distributed systems and applications. DRP identifies the
recovery sequence of all mainframe workloads. We plan to determine realistic
timeframes for reestablishing access to these workloads. In addition, SSA will work to
further define the recovery of the distributed workloads.

Recommendation 38

•   Update contingency plans for headquarters;

Response to Recommendation 38

SSA agrees with this recommendation. In compliance with Presidential Decision
Directive Number 67, Enduring Constitutional Government and Continuity of Operations
Plan, SSA has convened an agencywide workgroup to develop an infrastructure for
contingency planning. This includes defining organizational roles and responsibilities,
essential operations and staffing, training, maintenance, etc. The actions
recommended by the workgroup and approved by SSA management will be
incorporated in to the Agency Contingency plan.

Recommendation 39

•   Finalize and test SSA’s ultimate strategy for implementing and maintaining alternate
    processing facilities; and

Response to Recommendation 39

SSA agrees with this recommendation. Our current IAA with GSA provides SSA with a
long-term, alternate facility supplied through a GSA contract. These provisions will be
implemented and provide SSA access to the site for 1 year should a catastrophic event
leave the NCC uninhabitable for longer than 6 weeks. SSA annually tests the use of
alternate facilities when conducting its disaster recovery test of NCC operations. The


                                           C-14
extent of these tests is limited by test time constraints, the smaller configuration used for
testing, availability of personnel and other such factors.

Over the years, SSA has gained significant experience in installing and running its
systems on a wide variety of hardware during disaster recovery tests and benchmarking
new computing platforms. We believe this experience has resulted in the development
of reliable procedures that allow SSA to bring up its systems at any site. This, of
course, does not remove SSA's burden of verifying that secondary sites are stocked, as
indicated, by the vendor. We will evaluate the benefits of establishing orientation visits
at the secondary sites.

Recommendation 40

   •   Finalize and test contingency plans for non-headquarters sites.

Response to Recommendation 40

SSA agrees with this recommendation and is in the process of reviewing and updating
all of the Security Action Plans (SAP) that are in place in its non-Headquarters facilities.
The Area Directors will review and test the SAPs as they visit each site during the
course of the year. The Agency also conducts field site visits to assess the security that
is in place in our offices. In the course of these visits, staff will analyze the plans for
effectiveness and verity that employees are familiar with their content and application.


We also offer the following comments:

Improvement Area 2

Bullet 7, “SSA current practice of obtaining death data does not ensure that this data is
entered into DACUS accurately, timely and only once (affects the NUMIDENT, MBR,
and SSR). While this data may not have a direct effect on the performance measures
(#1, #2, #3, #4, #5, and #9) a noted lack of data verification in these databases
indicates the possibility that other data lacks integrity.”

Agency Comment

This item requires clarification. The report is unclear as to whether the development of
the third party reports or the input of SSA-721’s are factors in the reasons for the OIG
conclusion.

Bullet 8, “A comparison of the MBR, SSR and NUMIDENT identified a large number of
cases where either the individual was alive and in current pay status on the MBR/SSR
but listed as dead on the NUMIDENT, or corresponding records of a given individual
had significant differences in dates of death. While this data may not have a direct




                                            C-15
effect on the performance measures (#1, #2, #3, #4, #5, and #9), a noted lack of data
verification in these databases indicate the possibility that other data lacks integrity.”

Agency Comment

We are aware of the problem when the person is listed as deceased on the payment
records but alive on the NUMIDENT. These are usually reinstatement cases. Currently
reinstatements require two separate actions and in many cases the payment record is
corrected and the NUMIDENT remains uncorrected. Release 2 of DACUS, scheduled
for implementation in August 2000, will enable the reinstatement to communicate with
the DACUS system. This will result in a corrected NUMIDENT.

Other Matters

1. Documents prepared for external evaluation of SSA performance could be improved
to clearly explain the intended uses of the performance measures to comply with future
GPRA requirements.

Agency Comment

In response to the cited General Accounting Office recommendations, SSA is
expanding the explanation of the goals and measures and how they contribute to
evaluating overall SSA performance in the FY 2001 Performance Plan due to Congress
in February 2000.

2. The nine performance measures are not explicit performance budgeting metrics, but
are nonetheless appropriate internal performance indicators and are useful to the SSA-
wide strategic planning process.

Agency Comment

The statements in this section should be modified to recognize that stakeholders not
only include Congressional appropriators, but also customers, policy makers and the
general public who are looking at the overall effectiveness of the Agency in fulfilling its
mission. GPRA prescribes that outcome measures will be used for this purpose.

3. SSA is positioned to be a leading performance-based budgeting organization and to
meet the future requirements of GPRA.

Agency Comment

We appreciate the confidence expressed by the OIG in SSA readiness for performance
budgeting. The Office of Management and Budget (OMB) has designated SSA as one
of the government-wide performance budgeting pilot projects provided for in GPRA.
Within SSA, the Continuing Disability Reviews program is the specific activity covered
by this designation. OMB considers the performance budgeting pilot projects to be an



                                            C-16
opportunity to examine the feasibility and potential application of several approaches to
performance budgeting. In this context, OMB intends to use performance and resource
data provided by the pilots during development of the FY 2001 budget and to report to
Congress on the results of the pilots no later than March 31, 2001, as required by
GPRA.

Appendix A, Background, GPRA

This section should state clearly that the requirements of GPRA for Agency
performance plans and Agency performance reports were not in effect until FY 1999. It
should also acknowledge that although the report covers FY 1998 performance
measures, the GPRA requirements, including descriptions of the means employed to
verify and validate the measured values used to report on program performance, were
not in effect at that time.

Appendix A, SSA’s Performance Measures

The last paragraph should read “FY 1997-2002 strategic plan, “Keeping the Promise.”




                                          C-17
                                                                                                                    Appendix D

                        Performance Measure Summary Sheets


Name of Measure                                     Measure Type            Strategic Goal/Objective
5) Representative Payee Actions                     Workload                Goal: To make SSA program management the best
                                                                            in business, with zero balance for fraud and abuse
                                                                            Objectives: To positioning the Agency's resources and
                                                                            processes to meet emerging workloads, and to
                                                                            aggressively deter, identify, and resolve fraud.

Definition                                                                                        Purpose
Representative Payee Actions includes selection of a representative payee (nonselects are also    To combat fraudulent actions
included in the count), change of payee, representative payee accountings, investigations of      on the part of representative
Representative Payee, suspension of representative payees and change of information for           payees. This measure looks
representative payee. The representative payee accounting process includes accounting for Title   at the total number of
II, Title XVI as well as accounting for representative payees who live abroad.                    representative payee actions
                                                                                                  that occur within a year to
                                                                                                  determine whether SSA is
                                                                                                  monitoring the actions
                                                                                                  associated with representative
                                                                                                  payees appropriately.

How Computed                                        Data Source              Data Availability    Data Quality
Total number of representative payee actions as     RPS                      Some FY 1998         Acceptable
defined in definition above for Fiscal Year 1998.   WMS                      Available, FY 1999
                                                    PEMI                     Available
                                                    CSRETAP
                                                    FALCON
                                                    PCACS
                                                    COS


                                                               D-1
Explanatory Information                                                                            Report Frequency
The measure looks at representative payee changes and accountings for both the US and foreign       Monthly
countries. An action for representative payee changes within the US is initiated with any of the
following occurrences –1) SSA decides to investigate a Representative payee 2) a representative
payee account requires a change of information or 3) an SSA beneficiary, or representative payee
identifies the need to change or add a representative payee. International Representative payee
changes occur when an applicant fills out an application at an embassy, consulate or military JAG
office or mails in an application to any of the aforementioned locations or to PC8. International
Representative payee Accountings and domestic Representative payee Accountings are handled in
a similar manner. Representative payee Accounting forms mailed in by representative payees are
both received at the Wilkes-Barre Document Operation Center (WBDOC) and they are both
scanned at Wilkes-Barre. The International Representative payee Accounting forms with exceptions
are sent to PC8. The implementation of Title II Redesign should aid in the tracking of numbers from
the various sources and systems to the final number that is reported in the Accountability Report.

Target Goal                                        Division                  Designated Staff Members
6,983,800                                          OFAM, OFPO                Shirley Hodges




                                                               D-2
EDP AUDITOR Testing and Results
EDP Auditor testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Representative Payee Accounting forms received at WBDOC and processed via CICS are removed from ROBOT file
• Representative Payee Accounting forms received at WBDOC and processed via the scanner are removed from ROBOT file
• Title II Representative Payee Accounting actions processed via a Field Office are transferred to the PEMI application and
   ultimately into IWMS
• Title XVI Representative Payee accounting actions processed via a Field Office are transferred to the PEMI application and
   ultimately into IWMS
• Title II and Title XVI Representative Payee Changes processed via a Field Office are transferred to the PEMI application and
   ultimately into IWMS
• Title II and Title XVI Representative Payee Accounting transmission of WB MI Report from WBDOC to OIM
• Representative Payee International Accounting actions transfer into CAS
• Representative Payee International Changes actions transfer into CAS
• Applicable application controls
• Applicable general computer controls
 • Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," "SSA has a number of deficiencies in their systems contingency plan."




                                                               D-3
CAATs Testing and Results
•   Compared the before and after ROBOT file to ensure file was updated;
•   Compared CSREPRET.R0909 file to ROBOT.G1574 file to ensure ROBOT file was updated;
•   TITLE II REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file with the IWMS file to ensure the two record
    counts were equal;
•   TITLE XVI REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file with the IWMS file to ensure the two record
    counts were equal; and
•   TITLE II & XVI REPRESENTATIVE PAYEE CHANGES - Compared the PEMI file with the IWMS file to ensure the two record
    counts were equal.

See results of engagement entitled "SSA has a number of data integrity deficiencies."

Process Improvement Testing and Results
•   Traced the performance measure value per the FY 1998 CAS Report to the number reported in the FY 1998 Accountability
    Report; and
•   Traced the performance measure IWMS value to the values in the FY 1998 CAS Report.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," "Three of SSA's performance measures do not reflect a clear measure of performance," "GPRA
documents prepared for external evaluation of SSA performance do not clearly indicate the sources of the performance measures,"
and "A component was inadvertently omitted when calculating the total of one of the performance measures."




                                                                D-4
                                               Appendix E

Performance Measure Process Maps


         This page intentionally left blank.
                                                            Representative-Payee Process
                                                  PM #5: Number of Rep-Payee Actions Processed
                                                                                                                                              Rep-Payee lives in USA
                                                                                  Domestic Title II              2A                      Rep-Payee Accounting is initiated           2A
                                                                                                                                        with domestic Rep-Payee Acctg Sys


      Begin                   Rep-Payee Accounting                               Domestic Title XVI              4A

                                                                                                                                     Rep-Payee lives abroad
                                                                                                                                    Rep-Payee is audited via
                                                                                    International (OIO) Title II
                                                                                                                                  Foreign Enforcement process                 Stop
Rep-Payee Changes                                                             (Beneficiary or Rep-Payee live abroad)
                                                                                                                                    (SSA-7161), which is not
                                                                                                                                    included in subject count


                                                                                        FO updates RPS                                                        At this point in time, OIM has
                                   SSA decides to                                                                                                             not been given clearance to
                                                               FO conducts             with relevant details
                                   investigate Rep-                                                                          Title XVI                        obtain Title XVI summary
                                                               investigation             of investigation
                                        Payee                                                                                                                 information via RPS. They
                                                                                       using RSEL screen         Title II
                                                                                                                                                              have developed a process to
                                                                                                                                                              utilize Title XVI data from
                                                                                                                   1A                                         RPS and project a
                                                                                                                                                              switchover in the near future.

                                                                                           FO Claims             Title II                    RPS CICS (RSEL)
                                Rep-Payee Account             Rep-Payee
              Beneficiary/                                                               Representative                                       Screen creates           PEMI reads traffic
                                requires a change of       provides FO CR
              Rep-Payee                                                               changes Rep-Payee                     Title XVI        record in centrally        file to increment
                                  information (e.g.,       with new account
               Live in US                                                              information in RPS                                    located traffic file       summary count
                                address, phone, etc)          information
                                                                                      using RSEL screen                                         (CT record)

                                   All Rep-Payee applicants are included in the final count,
                                                                                                                                                  Title XVI
                                 even if they are not selected by SSA to be the Rep-Payee
                                                                                                                                                                         PEMI transfers
                                                                                            Claims                                                                      summary counts
                                SSA, Beneficiary, or          Rep-Payee                                                                      SSA denotes Rep-
                                                                                        Representative          SSA reviews case                                           to IWMS
                                Rep-Payee identifies       candidate applies                                                                 Payee selection in
                                                                                       (CR) enters data         and selects Rep-
                                 need to change (or         at Field Office                                                                  RPS using RSEL
                                                                                        into RPS using               Payee
                                  add) Rep-Payee                 (FO)                                                                             screen
                  1A                                                                     RSEL screen

                                                                                                                                                                               7B
                                                                                           Title II


                                                                                        PEMI reads
                                                            WMS copies
                                                                                    transactional data          PEMI transfers
                                RPS passes data               relevant
                                                                                     in WMS DB and             summary counts                7A
                                 on-line to WMS          transactional data
                                                                                         calculates               to IWMS
                                                         to WMS Database
                                                                                     summary counts



                       Beneficiary or Rep-Payee
                                                                                             6A
                             Live Abroad


                                                                                D-2
                                                Representative-Payee Process (Continued)

       2A                                                                                                                                          Rep-Payee
                    Title II Accounting                                                                                        Rep-Payee
                                                                                                                                                 desires help w/
                                                                                                                            seeks assistance                         2B
                                                                                                                                                form & takes it to
                                                                                                                           w/ Accounting Form
                                                                                                                                                    local FO


                          Rep-Payee Accounting                                      Rep-Payee Accounting System
CSRETAP reads                                           Rep-Payee Accounting                                              SSA sends              Vendor prints &
                          System reads universe                                    obtains Conserved Fund Amount
 MBR & writes                                            System Eligible Rep-                                            relevant Rep-           distributes Rep-
                          file & determines which                                    from previous accounting (if
universe of Rep-                                         Payees are written to                                         Payee information        Payee Accounting
                            Rep-Payees to target                                   available) from Master Conserved
 Payees to file                                              ROBOT file                                                    to vendor                   forms
                                for accounting                                     Funds File & adds to ROBOT file


                                                            No response from Rep-Payee after 4 months




                           Vendor prints &
SSA sends Rep-                                                                                                         WBDOC estimates
                           distributes 2nd             Rep-Payee         Rep-Payee fills out    WBDOC receives
Payee information                                                                                                       number of forms
                           Notice w/ Rep-           receives & reads     Accounting form &      Rep-Payee form in
to vendor for 2nd                                                                                                      received based on
                          Payee Accounting                form           mails it to WBDOC         Mail Room
     notice                                                                                                                  weight
                                 form
                                                                                                                                                  WBDOC Clerk
       Still no response                                                                                                                            identifies
       from Rep-Payee                                                                                                                             approvals (no      3A
   after 4 additional months                                                                                                                      development
                                                                                 2B                  WBDOC routes                                   needed)
                                                                                                        forms to
                                                                                                      examination                                 WBDOC Clerk
                                                                                                         station                                     identifies
                              Field Office                                  FO Technician                                                         exceptions that    3B
 WBDOC sends                                                                                                                                     should be handled
                              attempts to           Rep-Payee visits      helps Rep-Payee
 special alert to                                                                                                                                   by PCs 1-7
                             contact Rep-             Field Office        fill out Accounting    WBDOC Clerk examines
  relevant FO
                                 Payee                                           Form            forms & sorts based on
                                                                                                  follow-on development                           WBDOC Clerk
                                                                                                       requirements                                  identifies
           Rep-Payee not found                                                                                                                    exceptions that
            or does not respond                                                                                                                  should be handled
         (Total elapsed time 1 year)                                                                                                               by PC 8 (OIO)


                                                       FO Technician clears                                                                       WBDOC Clerk
                                                                                 CICS Accounting           Nightly batch
Rep-Payee Accounting                                     Rep-Payee from                                                                             identifies
                                                                                  screen triggers         removes Rep-
  system clears Rep-                  End               "diary" using CICS                                                       3E              exceptions that     3C
                                                                                 placement of X in       Payee with Xs
Payee from ROBOT file                                   ACCT (Rep-Payee                                                                         can be handled by
                                                                                    ROBOT file          from ROBOT file
                                                       Accounting) Screen                                                                           WBDOC



                                                                                 D-3
                                                         Representative-Payee Process (Continued)

                    WBDOC                      WBDOC                                                                         Scanner
                Technician inputs            Technician              Form is sorted by                                 increments WBDOC
     3A         Conserved Funds                visually              Program Service          Form is scanned           electronic count &                3G
                 (CF) values via          determines if form           Center (PSC)                                      logs Rep-Payee
                    FALCON                 can be scanned                                                                   SSN in file


                                                                                                                            3D

                                                                     WBDOC Technician            CICS Acctg screen                                                               Rep-Payee SSN
                                                                     clears Rep-Payee           increments WBDOC                                                   3F          file sent on-line to
                                               Form can not
                                                                     from "diary" using           electronic count &        3G                                                         NCC
                                                be scanned                                                                                           3D
                                                                      CICS Rep-Payee           triggers placement of
                                                                     Accounting Screen             X in ROBOT file


                     WBDOC                                                    WBDOC Technician            CICS Acctg screen                                                     NCC removes
                                                                                                                                                       Nightly batch
                 Technician inputs                                            clears Rep-Payee           increments WBDOC                                                      Rep-Payees from
                                               WBDOC sorts        PC 7                                                                                removes Rep-
     3B          Conserved Funds                                              from "diary" using           electronic count &          3G                                      ROBOT file based
                                                Form by PC       (ODO)                                                                               Payee with Xs
                  (CF) values via                                              CICS Rep-Payee           triggers placement of                                                   on SSNs from
                                                                                                                                                    from ROBOT file
                     FALCON                                                   Accounting Screen             X in ROBOT file                                                        WBDOC

                                                                                                                                       3D
                                      PC 1-6
                                                                                                   3F
                                                                                                                                                               These steps are shown to clarify how
                      WBDOC                                                Scanner                                                                             the Rep-Payees are cleared from the
                    Technician                                       increments WBDOC                                                                          ROBOT file, but are not explicitly on
                      visually             Form is scanned            electronic count &                   3G                                                  the path that the subject data follows
                 determines if form                                    logs Rep-Payee                                                        3E
                                                                                                                   The tabulation is
                  can be scanned                                          SSN in file                              based on WBDOC
                                                                                                                   electronic counts

                                           WBDOC Technician            CICS Acctg screen            WBDOC tabulates
                                           clears Rep-Payee            increments WBDOC                 count of                              Rep-Payee Accounting
                     Form can not
                                           from "diary" using            electronic count &         Accounting forms                        System writes completed             OSDD sends
                      be scanned                                                                                                            transaction to RSACCOIM            RSACCOIM file to
                                            CICS Rep-Payee            triggers placement of         processed in WB
                                           Accounting Screen              X in ROBOT file               MI Report                              file based on removal            OIM (via LNK)
                                                                                                                                                   from ROBOT file

WBDOC subsequently resolves issues w/ Rep-
Payee or sends to PC for further development                                    3D
                                                                                                    WBDOC provides
                                                                                                   WB MI Report to SSA           7C
                WBDOC Technician              CICS Acctg screen                                           OIM                                    PEMI reads
                clears Rep-Payee              increments WBDOC                                                                              transactional data           PEMI transfers
     3C         from "diary" using             electronic count &          3G                                                                in RSACCOIM file           summary counts                7D
                 CICS Rep-Payee            triggers placement of X                                                                              & calculates               to IWMS
                Accounting Screen                 in ROBOT file                                                                               summary counts
                                                                          The report includes counts for forms
                                                                          that are cleared via both scanner and
                                                                          CICS screen at WBDOC


                                                                                               D-4
                                           Representative-Payee Process (Continued)

                Title XVI Accounting
         4A
                      Between 100,000 to 200,000 are         The date placed in the AR Diary is
                      selected each month                    the 1st of the following month

  SSI Redetermination                                                             SSI Redetermination                                Vendor prints &
                            SSI Redetermination     SSI Redetermination                                     SSA OTSO places
 Merge Run (monthly)                                                                Merge Run sorts                                mails "First Request"
                            Merge Run creates       Merge Run formats                                       print files on tape
selects "First Request"                                                           "First Request" print                                Rep-Payee
                            an "AR" diary in the    "First Request" print                                      cartridges &
  Rep-Payee cases to                                                              records by zip code                               Accounting forms
                             beneficiary's SSR             record                                            sends to vendor
 target for accounting                                                            & writes them to file                              (SSA-623-SM)


                                                    No response from Rep-Payee after 90 days


SSI Redetermination         SSI Redetermination           SSI Redetermination                                   Vendor prints &
                                                                                        SSA sends print
Merge Run (monthly)           Merge Run adds                Merge Run sorts                                     mails "Second          Rep-Payee
                                                                                       files to vendor on                                                Rep-Payee
 selects "Second          -1 Follow-up code to AR        "Second Request" print                               Request" Rep-Payee       receives &
                                                                                      tape cartridges via                                             seeks assistance
Request" Rep-Payee        diary & formats "Second        records by zip code &                                 Accounting forms        reads form
                                                                                              OMBP
      cases                Request" print record           writes them to file                                  (SSA-623-SM)

                                                                                                                                                             Rep-Payee
                                        No response from Rep-Payee after 150 days (total)
                                                                                                                                                           desires help w/
                                                                                                                                                             Accounting
SSI Redetermination Merge        SSI Redetermination                                                                                                            form
Run (monthly) selects "150       Merge Run (monthly)           FO attempts to
 Day Non-response" Rep-          sends 150 Day Non-            contact Rep-             5E
Payee cases & adds "2" to        response list to FOs             Payee
   REPSEL field in SSR            (via secure printer)                                                                                                           5E

                          Rep-Payee not found or does
                          not respond after 10 months                                                                                         WBDOC Clerk
                                                                                                                                                identifies
                                                                                                                                              approvals (no           5A
 SSI Redetermination
                                                                          Rep-Payee fills out       WBDOC receives                             development
 Merge Run (monthly)
                                  End                                     Accounting form &         Rep-Payee form in                            needed)
deletes AR diary from
                                                                          mails it to WBDOC            Mail Room
       record
                                                                                                                                              WBDOC Clerk
                                                                                                                                                identifies
                                                                                                                                             exceptions that          5B
              Approximately 6000 to 8000
                                                                                                                                            should be handled
               are deleted each month
                                                                                                                                               by PCs 1-7
                                           WBDOC estimates                                    WBDOC Clerk examines
                                                                     WBDOC routes
                                            number of forms                                   forms & sorts based on
                                                                    forms to Benefits                                                         WBDOC Clerk
                                           received based on                                   follow-on development                            identifies
                                                                      Notices Area
                                                 weight                                             requirements                             exceptions that          5C
                                                                                                                                            can be handled by
                                                                                                                                                 WBDOC
                                                                            D-5
                                                Representative-Payee Process (Continued)

              PEOB is a multiple entry screen                                                                         These steps are shown                 RIC = Record
                                                          Transaction Filename = ZDREP4PH.W
               tool developed for WBDOC                                                                                   only for clarity                Identification Code
                                                                                                  Scanner/Lifeworks
                WBDOC                               WBDOC
                                                                                                  System increments                               Transaction file
               Technician           Form        Technician inputs           Form is scanned
                                                                                                  WBDOC electronic                                  sent to NCC
  5A             visually          can be       Conserved Funds              using Scanner/                                    5D
                                                                                                count & writes "SSI PE"                          (Global DASD) via
            determines if form    scanned       (CF) values using          Lifeworks System
                                                                                                 record to transaction                                 FTMS
             can be scanned                       PEOB Screen
                                                                                                          file


                                                                                                                                                                  ZEREPPYE
                                   WBDOC Technician
                                                                                                                                     CICS Screen              Program creates &
                                   enters CF & clears          PEOB CICS Screen
               Form can not                                                                                            5F           creates RIC "O"             formats RIC "O"
                                    Rep-Payee from             increments WBDOC          5D
               be scanned                                                                                                               Record                for each record in
                                   "diary" using PEOB            electronic count
                                                                                                                                                                Transaction file
                                      CICS Screen

                                                                                                5F

                                             WBDOC Technician                                                                    Zenith Program (front           PE Update
                                             enters CF & clears            PEOB CICS Screen                                       end of SSI System)            Program (SSI
              WBDOC sorts          PC 7
  5B                                          Rep-Payee from              increments WBDOC        5D                             funnels RIC "O" files        System) changes
               Form by PC         (ODO)
                                             "diary" using PEOB             electronic count                                    together for use by PE        AR Diary, CF & M
                                                CICS Screen                                                                             Update                 fields on SSR

                 PC 1-6                                                                           5F

                                                                                                                                                           FO Technician helps
                WBDOC                           WBDOC
                                                                                                                                    Rep-Payee visits        Rep-Payee fill out
               Technician          Form     Technician inputs         Form is scanned                                  5E
                 visually         can be    Conserved Funds            using Scanner/                                                 Field Office          Accounting form
                                                                                                                                                             (SSA-623-SM)
            determines if form   scanned     (CF) values via         Lifeworks System     These steps are
             can be scanned                      PEOB                                     shown to clarify how
                                                                                          the Rep-Payees are
                                                                                          cleared from the AR
                                    WBDOC Technician                                      Diary                            FO Technician clears Rep-        PEOB CICS Screen
                                    enters CF & clears                                                                      Payee from "diary" using        creates record in
                Form can not                                  The report includes counts for
                                     Rep-Payee from                                                                        CICS SSI Data Input Screen        centrally located
                be scanned                                    forms that are cleared via both
                                    "diary" using PEOB                                                                    (SPE Screen, formerly Form            traffic file
                                                              scanner and CICS screen
WBDOC subsequently                     CICS Screen                                                                                  1719B)                     (CT record)
resolves issues w/ Rep-
                                                                     5D
Payee or sends to PC for
further development

                                                              WBDOC tabulates                                               PEMI reads traffic         PEMI transfers
            WBDOC Technician
                                     PEOB CICS Screen             count of            WBDOC provides                        file to increment         summary counts        7E
            clears Rep-Payee
  5C                                increments WBDOC          Accounting forms       WB MI Report to SSA         7C          summary count               to IWMS
            from "diary" using
                                      electronic count        processed in WB               OIM
            PEOB CICS Screen
                                                                  MI Report


                                                         5F



                                                                                  D-6
                                               Representative-Payee Process (Continued)
                                                              Rep-Payee applicant can
                                                              also mail in application to
6A   Beneficiary and/or Repayee Live Abroad                    any of these locations.                                   PCACS = Program Center Action Control System
                                                                                                                         ACR = Action Control Record
                                                          DSE = Direct Service Employee
                                                                                                                         TOEL = Type of Event Level

       SSA, Beneficiary,          Rep-Payee                  Embassy,                                          DSE generates          OIO Technician
                                                                                  PC8 DSE reviews                                                            OIO Technician
         or Rep-Payee          candidate fills out        consulate or JAG                                    PCACS ACR with          reviews Rep-
                                                                                     package &                                                                selects Rep-
       identifies need to        application at             Office sends                                      TOEL Code(s) &         Payee application
                                                                                     determines                                                              Payee based on
       change (or add)       embassy, consulate            package to SSA                                      routes package         & compares to
                                                                                  action(s) required                                                          SSA criteria
          Rep-Payee          or military JAG office        PC8 (Baltimore)                                       accordingly         other candidates



                                                                                                                                                               WBDOC sends
             OIO Technician             Object program                 OIO sends                                                                      6B       Rep-Payee Form
                                                                                                                           PCACS                                to PC-8 (OIO)
          enters selected Rep-           sends "COS"                package to PC8              OIO Technician
                                                                                                                      increments work
            Payee in RPS (if               (Computer               for storage in file         clears ACR from                                  7F
                                                                                                                      count for relevant
           possible) & MBR or          Operations Section)             or further                  PCACS
                                                                                                                        TOEL Code(s)
                  SSR                     Read to PC8                 processing
                                                                                                                                                                OIO determines
                                                      There are approximately 24 object programs that interface with                                           action(s) required
                                                      PCACS. These are tools that allow users to perform various tasks.                                           & prepares
                                                      At this point the TOEL codes are assigned.                                                                PCACS ACR w/
                                                                                                                                                                 TOEL codes
                                                                Embassy,                                           DSE generates           OIO Technician
       Rep-Payee Account           Rep-Payee fills out                                   PC8 DSE reviews
                                                             consulate or post                                   PCACS ACR with              processes
      requires a change of       relevant document at                                        package &                                                           OIO Technician
                                                             sends package to                                    TOEL Code(s) &             change using
        information (e.g.,        embassy, consulate                                        determines                                                           takes required
                                                                 SSA PC8                                          routes package           relevant object
      address, phone, etc)       or military JAG office                                  action(s) required                                                     action relative to
                                                                (Baltimore)                                         accordingly               program
                                                                                                                                                                 deficient Rep-
                                                                                                                                                               Payee Acctg form



          OIO Technician          Object program             CDDM sends                                                                                         OIO Technician
                                                                                                                   PCACS
             processes             sends "COS"              package to be            OIO Technician                                                            clears ACR from
                                                                                                              increments work
         relevant changes        (Computer Output           stored in file or       clears ACR from                                    7F                          PCACS
                                                                                                              count for relevant
          in MBR, SSR or          System) Read to         further processed             PCACS
                                                                                                                TOEL Code(s)
                RPS                    PC8                by OIO Technician


                                                            CDDM conducts                                                                                           PCACS
                                  OIO determines                                                                                                               increments work
                                                             investigation &                                         PCACS
        SSA decides to           action(s) required                                       OIO Technician                                                       count for relevant
                                                            sends file to be                                    increments work
        investigate Rep-            & prepares                                           clears ACR from                                   7F                    TOEL Code(s)
                                                            stored or further                                   count for relevant
            Payee                 PCACS ACR w/                                               PCACS
                                                           processed by OIO                                       TOEL Code(s)
                                   TOEL codes
                                                               Technician
                                                                                                                                                                      7G
                                                                         CDDM=Claims Development
                                                                           and Disability Module


                                                                                 D-7
                                    Representative-Payee Process (Continued)


                              IWMS stores count          OFPO uses SSAMIS                                 OFPO obtains Code
            Title II            as IWMS Code              GETDOWR to obtain           CAS Sums counts      #0403 for use in
7A                                                                                    and enters in CAS
      Rep-Payee Changes        55972 & DOWR             DOWR 15 & enters value                              Accountability
                                                                                        Code #0403
                                 Category 15             in CAS Code #04031                                    Report



                              IWMS stores count          OFPO uses SSAMIS
7B         Title XVI            as IWMS Code              GETDOWR to obtain                                                   End
      Rep-Payee Changes        72952 & DOWR             DOWR 24 & enters value
                                 Category 24             in CAS Code #04032



                                                         OFPO uses SSAMIS to
                              OIM receives WB MI
       Title II & Title XVI                             obtain IWMS 09272 value
7C   Rep-Payee Accounting       Report & enters          (OCRO portion only) &
                               counts into IWMS
       WBDOC (OCRO)                                       enters in CAS Code
                                 Code 09272
                                                            #04031 (OCRO)

                                      The WB MI Report includes counts of processed
                                      forms for both Title II & XVI Rep-Payees


                              IWMS stores count        OFPO uses SSAMIS
            Title II
7D   Rep-Payee Accounting       as IWMS Code           GETDOWR to obtain
     Form Cleared via CICS     19972 & DOWR          DOWR 6 & enters value in
                                 Category 6             CAS Code #04031



                              IWMS stores count        OFPO uses SSAMIS
           Title XVI            as IWMS Code           GETDOWR to obtain
7E   Rep-Payee Accounting
                               71052 & DOWR          DOWR 7 & enters value in
     Form Cleared via CICS
                                 Category 7             CAS Code #04032



                                  OFPO uses TSO
            OIO                 GETPCACS to obtain          OFPO enters values
7F                                                            into CAS Code
      Rep-Payee Changes       counts from PCACS using             #04031
                               relevant TOEL Code(s)



                                  OFPO uses TSO
                                                            OFPO enters values
7G          OIO                 GETPCACS to obtain            into CAS Code
     Rep-Payee Accounting     counts from PCACS using
                                                                  #04034
                               relevant TOEL Code(s)




                                                               D-8
